<html>
<title> - ADDRESSING GSA'S CULTURE OF WASTEFUL SPENDING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
             ADDRESSING GSA'S CULTURE OF WASTEFUL SPENDING

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 16, 2012

                               __________

                           Serial No. 112-173

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
75-709                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4b5c436c4f595f584449405c024f434102">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 16, 2012...................................     1

                               WITNESSES

Mr. Brian D. Miller, Inspector General, U.S. General Services 
  Administration
    Oral Statement...............................................     5
    Written Statement............................................     7
The Honorable Martha N. Johnson, Former Administrator, U.S. 
  General Sevices Administration
    Oral Statement...............................................    34
    Written Statement............................................    35
The Honorable Michael J. Robertson, Chief of Staff, U.S. General 
  Services Administration
    Oral Statement...............................................    40
Mr. David E. Foley, Deputy Commissioner, Public Buildings 
  Service, U.S. General Services Administration
    Oral Statement...............................................    40
The Honorable Daniel M. Tangherlini, Acting Administrator, U.S. 
  General Services Administration
    Oral Statement...............................................    82

                                APPENDIX

The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, Opening Statement...........................    95
Email from GSA Deputy Administrator Susan Brita to GSA IG Brian 
  Miller.........................................................    97
The Honorable Gerald E. Connolly, a Member of Congress from the 
  State of Virginia, Opening Statement...........................    98
The Honorable Paul Gosar, a Member of Congress from the State of 
  Arizona, Questions asked to U.S. General Services 
  Administration.................................................    99
Memo sent to all GSA's employees on restrictons on travel and 
  Conferences for FY 2012 from Dan Tangherlini, Acting 
  Administrator..................................................   100
 Memorandum on Clarification I, II, and III of April 15, 2012 
  Travel, Training and Conferences from Cynthia A. Metzler, Chief 
  Administrative Services Officer (H)............................   101
Questions for Ms. Martha Johnson, Former Administrator of the 
  General Services Administration from the Honorable Paul Gosar..   106


             ADDRESSING GSA'S CULTURE OF WASTEFUL SPENDING

                              ----------                              


                         Monday, April 16, 2012

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 1:30 p.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Burton, Turner, McHenry, 
Chaffetz, Lankford, Buerkle, Gosar, Walsh, Gowdy, Guinta, 
Farenthold, Kelly, Cummings, Norton, Tierney, Connolly, Welch, 
and Yarmuth.
    Also Present: Representative Emerson.
    Staff Present: Ali Ahmad, Communications Advisor; Kurt 
Bardella, Senior Policy Advisor; Michael R. Bebeau, Assistant 
Clerk; Robert Borden, General Counsel; Molly Boyl, 
Parliamentarian; Lawrence J. Brady, Staff Director; Ashley H. 
Callen, Counsel; Sharon Casey, Senior Assistant Clerk; Steve 
Castor, Chief Counsel, Investigations; John Cuaderes, Deputy 
Staff Director; Jessica L. Donlon, Counsel; Kate Dunbar, 
Legislative Analyst; Linda Good, Chief Clerk; Jennifer 
Hemingway, Senior Professional Staff Member; Frederick Hill, 
Director of Communications and Senior Policy Advisor; 
Christopher Hixon, Deputy Chief Counsel, Oversight; Mitchell S. 
Kominsky, Counsel; Ryan Little, Professional Staff Member; 
Justin LoFranco, Deputy Director of Digital Strategy; Mark D. 
Marin, Director of Oversight; Ashok M. Pinto, Deputy Chief 
Counsel, Investigations; Laura L. Rush, Deputy Chief Clerk; 
Jonathan J. Skladany, Counsel; Jeff Solsby, Senior 
Communications Advisor; Rebecca Watkins, Press Secretary; Jaron 
Bourke, Minority Director of Administration; Kevin Corbin, 
Minority Deputy Clerk; Ashley Etienne, Minority Director of 
Communications; Susanne Sachsman Grooms, Minority Chief 
Counsel; Jennifer Hoffman, Minority Press Secretary; Carla 
Hultberg, Minority Chief Clerk; Lucinda Lessley, Minority 
Policy Director; Steven Rangel, Minority Senior Counsel; and 
Dave Rapallo, Minority Staff Director.
    Chairman Issa. The committee will come to order.
    It is the custom of this committee is to read our mission 
statement at the start of every hearing. I think particularly 
today it is important that we read it.
    The Oversight Committee's mission statement is that we 
exist to secure two fundamental principles: First, Americans 
have a right to know that the money Washington takes from them 
is well spent; and, second, Americans deserve an efficient, 
effective government that works for them. Our duty on the 
Oversight and Government Reform Committee is to protect these 
rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their government. It is our job to work tirelessly, in 
partnership with citizen watchdogs, to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    This is our mission statement. And I might add, when I say 
``citizen watchdogs'' that does include the Inspector Generals.
    We are here today to get answers to questions that should 
have been asked and answered long, long, long time ago. The 
details that have come to light about the GSA conference held 
in Las Vegas have raised serious questions in the minds of the 
American people about how government is using their tax 
dollars.
    There are those who believe government and its reach should 
be expanded. They believe that government should be bigger, 
have more resources, and play a larger role in the everyday 
lives of the American people. What has come to light 
surrounding GSA's activities does give us pause for thought and 
to anyone who opposes cutting government size and spending 
that, in fact, there is much to be cut in government spending.
    There are five key questions that still stand out, and 
hopefully by the end of this hearing some will be answered. 
First and foremost, why did it take 11 months for this 
investigation under the Obama administration to come to light 
in a way in which meaningful action could begin?
    The Inspector General briefed the Administrator about 
details in an interim report and gave details of those 
responsible for gross waste. Yet indications are that some 
political appointees believe even this year that this report 
should be kept private. We on the committee find that 
outrageous. Although it is the custom of many Inspector 
Generals to inform this committee during early interim 
reporting and prior to a final report, that alone is not 
unusual. However, the fact that 11 months transpired gives us a 
particular reason to say, how long after an interim report is 
delivered and no action is taken before Congress is to be 
informed?
    There are still outstanding questions regarding the 
resignation of Martha Johnson as GSA Administrator. First of 
all, who asked her to resign? What specific reason was she 
asked to be resigned for? Was it because she was responsible 
for the events that unfolded at the convention or because she 
mishandled the public relations of the fallout that came 11 
months later?
    While Martha Johnson has been removed, as Chief of Staff, 
Michael Robertson, who is also here today, has remained in 
place. Mr. Robertson previously served President Obama as 
legislative counsel in the Senate and served as a personal 
advisor to the President. It begs the question, are we really 
to believe that the Chief of Staff to the GSA Administrator and 
the right-hand man didn't know anything about this for all this 
time? And if he didn't, shouldn't he have? Did he communicate 
the seriousness of this situation to the White House? And if 
so, when?
    Why was Jeff Neely, a Regional Public Buildings Service 
Commissioner who was the chief organizer of the 2010 Las Vegas 
conference, given a bonus approved by the agency's most senior 
officials even though they knew and were discussing sensational 
details of what had happened at the conference? The question 
here from the dais has to be: All the good works, all the 
assertions of a good job--if you have this kind of abuse, can 
they balance out to be a positive bonus totaling over $9,000?
    And finally, while we are determined to uncover the full 
truth about what went wrong and why, it is equally important to 
look to the future. I want to thank the GSA's new Acting 
Administrator, Dan Tangherlini--I am going to get it right much 
sooner--for being here today and testifying. He called me 
shortly after taking the job; assured me, as one would expect, 
that he didn't know everything, knew there was a problem, and 
would work diligently to fix it.
    That is all we can ask from the dais, is that mistakes, 
when made, are remedied, corrective action is taken, and that 
it be done in a professional way with an understanding that the 
bureaucracy is, in fact, neither Republican nor Democratic, 
that every administration faces these problems, and that 
solutions will not come by us pointing fingers to this 
administration, the last administration, or the next 
administration.
    Wasteful spending is a problem that transcends multiple 
administrations, but it is incumbent on the present 
administration to change the culture as best they can on their 
watch and leave to the next administration a better one than 
they inherited.
    With that, I recognize the distinguished ranking member, 
Mr. Cummings, for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to begin by thanking Mr. Miller, the Inspector 
General at GSA, for bringing to light this gross abuse of 
taxpayer funds and for his work over the past year 
investigating the conference in 2010.
    Two weeks ago, I, along with the rest of the Nation, was 
appalled to learn the results of this investigation, that GSA 
employees betrayed the trust we placed in them.
    For example, the Inspector General's report described the 
actions of Jeff Neely, a career GSA employee for many years and 
a senior-level executive in the Pacific Rim Region based in San 
Francisco. He is certainly not the only official implicated in 
this investigation, and several others appeared to have 
maximized their own benefit in an environment in which they 
knew--they knew--they could get away with it. Nevertheless, Mr. 
Neely's role as the host of the 2010 conference has raised 
significant questions.
    According to the report, Mr. Neely engaged in an 
indefensible and intolerable pattern of misconduct, including 
repeatedly violating Federal travel and procurement rules, 
holding lavish parties in luxury suites, and allowing his wife 
and other nongovernment officials to participate in some of 
these events at taxpayers' expense.
    In addition, documents obtained by the Inspector General 
indicate that Mr. Neely was aware that his actions were 
inappropriate. In one email, Mr. Neely invited personal friends 
to the conference, writing, and I quote--and this is simply 
incredible--quote, ``We'll get you guys a room near us, and 
we'll pick up the room tab. Should be a blast,'' end of quote. 
He then went on and wrote this, ``I know I'm bad, but as Deb 
and I often say, why not enjoy it while we have it and while we 
can? It ain't going to last forever,'' end of quote. Well, Mr. 
Neely, it stops now.
    The record indicates Mr. Neely's wife personally handled 
party arrangements, directed the actions of Federal employees, 
and ordered thousands of dollars in food at not their expense 
but the expense of taxpayers. In one case, Mr. Neely's wife 
reportedly impersonated a Federal employee so she could join 
him at a private-sector conference. The impression they 
conveyed by these documents is that Mr. Neely and his wife 
believed they were some sort of agency royalty, who used 
taxpayer funds to bankroll their lavish lifestyle. They 
disregarded one of the most basic tenets of government service: 
It is not your money; it is the taxpayers' money.
    Some of my questions today will be about the Inspector 
General's recommendation to get some of that money back. I want 
to know how we can recoup these funds, including from Mr. Neely 
and other GSA employees personally.
    I understand the Justice Department may be examining Mr. 
Neely's actions and that he intends to invoke the Fifth 
Amendment today. That is his right under the Constitution, and 
the committee should act responsibly in respecting his 
decision. However, I do not support granting Mr. Neely immunity 
at this time, Mr. Chairman. On Thursday, the chairman sent a 
letter to Mr. Neely's attorney suggesting that the chairman was 
considering immunizing him. On Friday, Mr. Neely's attorney 
responded positively, writing that Mr. Neely, quote, ``will 
abide by the appropriate court order and the procedures set 
forth under the immunity statute,'' end of quote.
    Granting immunity is a serious action that should not be 
entered into lightly since it could negatively impact a future 
criminal prosecution or prosecutions. Such a decision requires 
thoughtful considerations and consultation with the Justice 
Department. Our committee has no consultations about this, and 
I see no reason to immunize Mr. Neely if he has taken the 
actions of which he stands accused.
    In addition to addressing the actions of specific 
individuals, we need to understand how GSA's system allowed 
this pattern in this case, the extent to which it happened in 
previous cases, and the reforms necessary to prevent it from 
ever happening again.
    According to interviews by the Inspector General's Office, 
these activities were going on for years. When discussing the 
2010 conference, one witness stated, ``The planning of it was 
similar to what happened in previous WRCs. You know, we just 
kind of proceeded based on that.'' When investigators asked 
another witness whether the 2010 conference was an outlier, he 
said it was pretty consistent with previous conferences, and 
that although Mr. Neely wanted to do better than they did in 
New Orleans in 2008, there was not much difference.
    Let me close by noting that one of the most damaging 
aspects of this incident is that it tarnishes the reputation of 
hardworking government workers who dedicate their lives to 
public service. It gives them a bad name, and it is completely 
unfair. There are scrupulous employees across this government 
who follow the rules every single day. They pool their money 
out of their own pockets just to pay for coffee at their 
offices. They are honest and hardworking, and they should not 
be painted with the same brush.
    Mr. Chairman, I thank you for calling this hearing. And, 
with that, I yield back.
    Chairman Issa. I thank the gentleman.
    Chairman Issa. Pursuant to our rules, I now ask unanimous 
consent that our colleague from Missouri, Ms. Emerson, be 
allowed to participate in today's hearing.
    Without objection, so ordered.
    All Members will have 7 days to submit opening statements 
for the record.
    Chairman Issa. We now recognize our panel. The Honorable 
Brian D. Miller is the Inspector General of the General 
Services Administration. Ms. Martha N. Johnson is the former 
Administrator of the General Services Administration. Mr. Jeff 
Neely is the Regional Commissioner of Public Buildings Service 
in the Pacific Rim Region at the General Services 
Administration. Mr. Michael J. Robertson is Chief of Staff at 
the General Services Administration. And Mr. David E. Foley is 
the Deputy Commissioner of Public Buildings Service at the 
General Services Administration.
    Pursuant to our rules, all witnesses are required to take 
the oath. Would you please rise and raise your right hand to 
take the oath?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Let the record reflect that all witnesses answered in the 
affirmative.
    Please take your seats.
    In order to allow time for discussion, testimony will be 
limited to 5 minutes. Some of you have written statements; some 
do not. In either case, you may consider--or your written 
statements will be placed in the record in their entirety, so 
you may either read your written statement for 5 minutes or 
make other such comments as you think would be helpful to all 
of us.
    With that, the chair recognizes Mr. Miller for 5 minutes.

                       WITNESS STATEMENTS

             STATEMENT OF THE HON. BRIAN D. MILLER

    Mr. Miller. Thank you, Mr. Chairman.
    Good afternoon, Chairman Issa, Ranking Member----
    Chairman Issa. Would you pull the mic as close as you can 
tolerate?
    Mr. Miller. Okay.
    Chairman Issa. Thank you.
    Mr. Miller. Chairman Issa, Ranking Member Cummings, members 
of the committee, thank you for inviting me here to testify 
today.
    As you know, on April 2nd of this year, I published a 
report regarding GSA mismanagement of its Western Regions 
Conference in the fall of 2010. It may be very difficult among 
all the bad news and repugnant behavior to find but there is at 
least a glimmer of good news: The oversight system worked. My 
office aggressively investigated, interviewed witnesses, and 
issued a report. No one stopped us from writing the report, and 
no one stopped us from publishing the report. Justice Brandeis 
said that sunlight is said to be one of the best of 
disinfectants. Let's hope so.
    Congress recently strengthened Inspectors General, and we 
thank you for that. It helps us to do our job in protecting 
taxpayer dollars. And, unfortunately, we may be the last resort 
for protecting taxpayer dollars and, unfortunately, catching 
the fraud, waste, and abuse after the money is spent. More 
needs to be done to establish early warning systems. And that 
is why Acting Administrator Tangherlini and I reminded GSA 
employees to alert us as soon as they see anything wrong.
    When GSA wastes its own money, how can other agencies trust 
it to handle the taxpayer dollars given to them? As detailed in 
my report, GSA committed numerous violations of contracting 
regulations and the Federal travel regulation. This is a 
special concern because other Federal agencies need to be able 
to look to GSA as a model of how to conduct contracting and 
conference planning.
    In attempting to model the entrepreneurial spirit of a 
private business, some in the Public Buildings Service seem to 
have forgotten that they have a special responsibility to the 
taxpayers to spend their money wisely and economically. While a 
private business may use profits to reward employees in a 
lavish fashion, a government agency may not.
    In preparing the Western Regions Conference report, 
numerous dedicated professionals from throughout my office 
worked long hours to ensure that the report was accurate and it 
drew no conclusions beyond those fully supported by the 
evidence. It is my hope that these efforts will enable GSA to 
improve its contracting and conference-planning practices in 
the future so that GSA may not only be a better steward of 
taxpayer dollars but act as the leader within the Federal 
Government in efficient procurement and conference planning.
    I thank you for the opportunity to discuss this important 
report. I request that the report, as well as my written 
statement, be made part of the record. And I welcome any 
questions. Thank you.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T5709.001
    
    [GRAPHIC] [TIFF OMITTED] T5709.002
    
    [GRAPHIC] [TIFF OMITTED] T5709.003
    
    [GRAPHIC] [TIFF OMITTED] T5709.004
    
    [GRAPHIC] [TIFF OMITTED] T5709.005
    
    [GRAPHIC] [TIFF OMITTED] T5709.006
    
    [GRAPHIC] [TIFF OMITTED] T5709.007
    
    [GRAPHIC] [TIFF OMITTED] T5709.008
    
    [GRAPHIC] [TIFF OMITTED] T5709.009
    
    [GRAPHIC] [TIFF OMITTED] T5709.010
    
    [GRAPHIC] [TIFF OMITTED] T5709.011
    
    [GRAPHIC] [TIFF OMITTED] T5709.012
    
    [GRAPHIC] [TIFF OMITTED] T5709.013
    
    [GRAPHIC] [TIFF OMITTED] T5709.014
    
    [GRAPHIC] [TIFF OMITTED] T5709.015
    
    [GRAPHIC] [TIFF OMITTED] T5709.016
    
    [GRAPHIC] [TIFF OMITTED] T5709.017
    
    [GRAPHIC] [TIFF OMITTED] T5709.018
    
    [GRAPHIC] [TIFF OMITTED] T5709.019
    
    [GRAPHIC] [TIFF OMITTED] T5709.020
    
    [GRAPHIC] [TIFF OMITTED] T5709.021
    
    [GRAPHIC] [TIFF OMITTED] T5709.022
    
    [GRAPHIC] [TIFF OMITTED] T5709.023
    
    [GRAPHIC] [TIFF OMITTED] T5709.024
    
    [GRAPHIC] [TIFF OMITTED] T5709.025
    
    [GRAPHIC] [TIFF OMITTED] T5709.026
    
    [GRAPHIC] [TIFF OMITTED] T5709.027
    
    Chairman Issa. Ms. Johnson?

            STATEMENT OF THE HON. MARTHA N. JOHNSON

    Ms. Johnson. Chairman Issa, Ranking Member Cummings, and 
members of the committee, thank you for providing me the 
opportunity to present this testimony today.
    On April 2nd, 2012, I resigned as Administrator of the 
General Services Administration and left my cherished career as 
a public servant. I did so in order to step aside and allow a 
new team to rebuild GSA from major missteps regarding the 
Western Regions Conference in October 2010.
    I previously served GSA in the Clinton administration, 
leaving in 2001. At that time, the leadership was strong. 
Scheduled design programs and other programs were producing 
much value for our customers. When I returned to GSA in 2010, 
the agency was not quite the same. A quarter of the executive 
positions were empty, strategy was nonexistent, major customers 
viewed our partnership askance, labor relations were 
acrimonious, a more expensive leasing portfolio had ballooned, 
and more.
    Nearly 2 years had elapsed without a confirmed 
Administrator. Although I received a unanimous vote by the 
Senate, my own confirmation was delayed by 9 months. By the 
time I was sworn in, a sequence of four Acting Administrators 
had overseen the agency.
    What I did not know was that there was yet another problem. 
The Western Regions Conference and economical training event in 
the late 1990s had evolved into a raucous, extravagant, 
arrogant, self-congratulatory event that ultimately belittled 
Federal workers. Leaders apparently competed in entertainment 
rather than building performance capability. The expensive 
planning for that conference was well under way when I entered 
GSA, and I was unaware of the scope. Thus I began my tenure as 
Administrator.
    I take this opportunity to thank the overwhelming majority 
of GSA employees, 13,000 of them, who eagerly rose to the task 
of renewal. Their record is extraordinary: a building portfolio 
22 percent more efficient than equivalent private-sector 
buildings; efficient management of 220,000 vehicles, 10 million 
trip reservations, billions in purchase card transactions; the 
innovative USA.gov, results.gov, and more.
    As for my part, I set about reconstituting GSA's executive 
team. Over three-quarters of the senior executives are now in 
different roles than they were when I arrived. GSA's strategic 
path is clear. Customers praise us publicly--praise GSA 
publicly. The labor partnership is fruitful. GSA has email in 
the cloud. GSA's renovated 1800 F Street headquarters, which 
held 2,500 people, will be home to 4,500 people next year, 
allowing GSA to relinquish leases and save millions.
    However, GSA's performance, tragically, does not compensate 
for the issues raised by the IG and this committee. I greeted 
Mr. Miller's report on the conference without hesitation, 
agreeing completely with the recommendation. I am extremely 
aggrieved by the gall of a handful of people to misuse Federal 
tax dollars, twist contracting rules, and defile the great name 
of the General Services Administration.
    This is how that chapter unfolded. Around late October 
2010, Deputy Administrator Susan Brita requested an 
investigation into the Western Regions Conference. The IG 
subsequently communicated progress with a PowerPoint deck. In 
May 2011, we realized this was a very serious matter and we 
needed all the facts. However painful and disruptive, we were 
eager for the full report.
    In the interim, I addressed leadership, organizational 
controls, and conference management. I placed a new Regional 
Administrator in Region 9, relieving Jeff Neely of that 
responsibility. We also promptly backfilled the Region 9 
regional counsel with an internal reassignment. Under 
organizational controls, I established a Chief Administrative 
Services Office, reporting to me, with responsibility for GSA's 
acquisition, oversight of travel, conferences, and the like.
    With conference management, GSA had already been 
overhauling conferences. For example, the 50-year-old 
interagency resource management conference was evolving from an 
offsite at a hotel to a shorter event at Gallaudet. This year, 
it is a 1-day conference. We also cataloged our internal 
conferences, and Ms. Brita reviewed expenditures until she was 
satisfied that controls were in place.
    I believed the IG would conclude the investigation 
expeditiously. We finally received a report in February 2012. 
We then began disciplinary actions, revised internal controls, 
and adjusted budgets to penalize the regions.
    I accepted the IG's recommendation. I extended disciplinary 
action to career employees. It is a complicated process; it is 
under way. The egregious course and nature of this evidence led 
me then to terminate two of the political appointees in the 
line of authority to me and I submitted my own resignation.
    I personally apologize to the American people. As the head 
of the agency, I am responsible. I deeply regret this. I will 
mourn for the rest of my life the loss of my appointment.
    [Prepared statement of Ms. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T5709.028
    
    [GRAPHIC] [TIFF OMITTED] T5709.029
    
    [GRAPHIC] [TIFF OMITTED] T5709.030
    
    [GRAPHIC] [TIFF OMITTED] T5709.031
    
    Chairman Issa. Mr. Robertson?

           STATEMENT OF THE HON. MICHAEL J. ROBERTSON

    Mr. Robertson. Thank you, Mr. Chairman.
    Good afternoon, Chairman----
    Chairman Issa. I think your mic is not on yet. Thank you.
    Mr. Robertson. Good afternoon, Chairman Issa, Ranking 
Member Cummings, and members of the committee. Thank you for 
allowing me the opportunity to appear before you here today.
    My name is Michael Robertson, and I am Chief of Staff at 
the U.S. General Services Administration. Like you, I am 
appalled and disappointed by the indefensible conduct 
surrounding the Western Regions Conference outlined in the IG's 
report. The behavior of those responsible undermines GSA's core 
mission, the trust given to us by our government customers, and 
the trust of those we ultimately serve: the American people.
    GSA has accepted all of Inspector General Miller's 
recommendations, and we have taken strong action to prevent 
further abuses from occurring. And we will continue to work 
hard to restore faith in our mission.
    I appreciate the opportunity to appear today, and I look 
forward to working with this committee. And I welcome the 
opportunity to answer any questions. Thank you.
    Chairman Issa. Mr. Foley?

                  STATEMENT OF DAVID E. FOLEY

    Mr. Foley. Chairman Issa, Ranking Member Cummings, and 
members of the committee, thank you for inviting me to testify 
today. My name is David Foley, and I am the Deputy Commissioner 
of the Public Buildings Service.
    I sincerely apologize for my remarks at the awards ceremony 
for the Western Regions Conference. At the time of my remarks, 
I was not aware of the significant spending irregularities. I 
did not intend to condone any wasteful spending or minimize the 
role of congressional oversight.
    I especially apologize to Congresswoman Norton. I have the 
utmost respect for you. You have always been a strong advocate 
for GSA and our programs while holding us accountable as an 
agency, and I did not mean to belittle you or your role in any 
way. I attempted to make a joke in the context of a talent 
celebration that I perceived as being similar to a comedic 
roast.
    As the Deputy Commissioner, I should have taken the stage 
to stress that we have a serious job and responsibility as 
stewards of taxpayer funds. I realize I missed an opportunity 
to address nearly 300 people in my organization and stress the 
importance of the work we do.
    During my presentation at the award ceremony, I told the 
award recipient I was making his dreams come true by making him 
Commissioner for the rest of the day. Obviously, that was a 
joke; I was not seriously delegating any authority to the 
awardee.
    I also joked about some of the obligations of being the 
Commissioner. My understanding at the time was that the 
Commissioner was paying for the charges associated with the 
after-hours party on Tuesday evening, so I tried to use that in 
a humorous way that suggested that the awardee would have to 
pay for the party and the hotel.
    Finally, I said as the Acting Commissioner he would have to 
answer for his proposed pay increases in the video. My intent 
was to point out that the Commissioner has a lot of 
responsibilities and to answer to a lot of people in the 
administration and Congress, not to mock the various oversight 
roles.
    My remarks were wrong, and I take full responsibility for 
what I said. I understand the outrage about this conference, my 
comments, and how they have inflamed all of the issues 
surrounding this event.
    I preface the rest of my statement by saying that I have 
only seen the draft IG report that appears to be the same as 
what has been released publicly. I have not seen any of the 
supporting documents and was not questioned or briefed by the 
IG during the investigation, so I do not know all of the 
details. Additionally, I no longer have access to my emails or 
files, so I have not been able to review or verify my memory of 
these events. This represents my understanding based upon what 
I remember from almost 2 years ago.
    Concerning my role in the Western Regions Conference, again 
I want to start by apologizing. I was not directly involved in 
the planning for the conference or any of the financial and 
contracting irregularities identified in the Inspector 
General's report. I did attend 2-1/2 days of the conference. 
There were things that seemed over-the-top, but I believed they 
were not being paid for with government funds. In past 
conferences, items like the tuxedos and the after-hour parties 
were paid for by individuals, not the taxpayer. Had I known 
since what has been revealed, I would have been concerned and 
would have reported it.
    Because of the regional reporting structure in our agency, 
I did not have supervisory control or authority over how the 
regional budget was spent, procurement activities, or any of 
the employees in the Western Regions. The Regional 
Commissioners and their staff reported directly to their 
Regional Administrators, who in turn report to the 
Administrator's office. My primary role as the Deputy 
Commissioner is dealing with OMB, Congress, and other Federal 
agencies on critical projects and policy issues. I am not a 
contracting officer, and I do not have a warrant to approve 
expenditures.
    I attended two of the receptions cited in the IG report. 
One was hosted by the Commissioner, and I understood that he 
would be paying for refreshments and beverages. The second was 
on the last night to thank everyone for their efforts. At the 
time, I believed that one was paid for by the four hosting 
Regional Commissioners. I did not believe that any government 
funds were used to pay for the events that occurred after-
hours.
    I have spent the last 15 years of my career working for 
GSA, and I believe strongly in the agency's mission and the 
value it provides to other agencies and our country. I am truly 
sorry for my comments and apologize to this committee, the 
administration, my fellow GSA employees, and, most importantly, 
the American taxpayers.
    At this point, I am willing to take any questions you may 
have.
    Chairman Issa. Thank you.
    Chairman Issa. Mr. Neely, you have not provided us with any 
written testimony before the committee. Do you wish to make an 
opening statement?
    Mr. Neely. No, Mr. Chairman, I don't.
    Chairman Issa. It is my understanding from your counsel 
that you may want to assert your constitutional privileges and 
remain silent. Is that correct?
    Mr. Neely. Yes, Mr. Chairman, that is correct.
    Chairman Issa. Mr. Neely, the topic of today's hearing is 
GSA's culture of waste and spending. You are uniquely 
positioned to provide testimony that will help the committee 
better understand the GSA's spending of more than $850,000 at 
the conference in Las Vegas in 2010. To that end, I must ask 
you once again to consider answering the questions, so if you 
will bear with me.
    Mr. Neely, what is your title at GSA?
    Mr. Neely. Mr. Chairman, on the advice of counsel, I 
respectfully decline to answer based upon my Fifth Amendment 
constitutional privilege.
    Chairman Issa. Mr. Neely, did you attend the 2010 Western 
Regional Conference in Las Vegas?
    Mr. Neely. Mr. Chairman, on the advice of my counsel, I 
respectfully decline to answer based upon my Fifth Amendment 
constitutional privilege.
    Chairman Issa. Mr. Neely, did you approve the funding for 
the 2010 Western Regional Conference?
    Mr. Neely. Mr. Chairman, on the advice of my counsel, I 
respectfully decline to answer based upon my Fifth Amendment 
constitutional privilege.
    Chairman Issa. Just a few more. Mr. Neely, what was the 
original budget for that conference?
    Mr. Neely. Mr. Chairman, on the advice of my counsel, I 
respectfully decline to answer based upon my Fifth Amendment 
constitutional privilege.
    Chairman Issa. Mr. Neely, are you currently employed by the 
GSA as a Federal employee?
    Mr. Neely. Mr. Chairman, on the advice of my counsel, I 
respectfully decline to answer based upon my Fifth Amendment 
constitutional privilege.
    Chairman Issa. Lastly, Mr. Neely, are you prepared to 
answer any questions here today about your participation in the 
2010 Western Regional Conference?
    Mr. Neely. Mr. Chairman, I respectfully decline to answer 
any questions here today based upon my Fifth Amendment 
constitutional privilege.
    Chairman Issa. Mr. Cummings, do you have any questions?
    Mr. Cummings. Mr. Chairman, in light of the fact that Mr. 
Neely has asserted his rights under the Fifth Amendment, I have 
no questions.
    Chairman Issa. Thank you.
    Given that the witness has indicated that he does not 
intend to answer any questions and out of respect for his 
constitutional rights, I do now ask the committee to excuse the 
witness from the table but to have him remain for the remainder 
of the hearing.
    Without objection----
    Mr. Cummings. I have no objections.
    Chairman Issa. Without objection, so ordered.
    We will now take a very short, about a 4-minute, 3-minute 
recess. And I would ask Mr. Neely and his attorney to join us 
through that door.
    [Recess.]
    Chairman Issa. Thank you. Thank you all.
    Could we have the clerk remove Mr. Neely's name?
    I want to thank all of you for your patience. I have served 
for 12 years, Mr. Cummings for longer. This is the first time 
we have had somebody do this before one of my committees, so we 
wanted to make sure we did it exactly according to the rules.
    With that, I will recognize myself for 5 minutes.
    Ms. Johnson, I appreciate your opening statement and the 
work that you said you did, but I am very troubled by the bonus 
that Mr. Neely received. How can you justify a bonus for 
somebody that you knew at the time of his bonus from Mr. Miller 
in fact was at the center of this misconduct?
    Ms. Johnson. Congressman, there are two processes; one is 
the conduct process, and one is the performance process. The 
conduct process by which I could discipline someone was wrapped 
up in an investigation which I requested from the IG.
    Chairman Issa. Well----
    Ms. Johnson. It took much longer than I expected.
    Chairman Issa. No, I appreciate that, but Mr. Miller----
    Ms. Johnson. The performance process----
    Chairman Issa. Were you aware that excess money was spent 
at that conference, significant excess?
    Ms. Johnson. I had received a communication from the IG 
with nonconclusive results. I was concerned; I wanted the full 
picture.
    So when we moved to the performance cycle, the performance 
reviews for senior executives are based on a 3 for maintaining 
an organization, a 4 for reforming an organization, and a 5 for 
transforming. I was informed that his leasing processes were 
the model for the Nation. Leasing is one of our critical 
issues. I granted him a 4.
    Chairman Issa. Okay.
    Mr. Miller, you gave that preliminary some 11 months before 
your final. I am going to ask you something not normally asked 
of an IG. Would you have tried to find a way not to grant that 
bonus considering what you knew and had briefed on, concerning 
Mr. Neely and others?
    Mr. Miller. Mr. Chairman, of course I am not in that 
position, but, you know, I believe the Administrator was free 
not to give the Region 9 Regional Commissioner a good 
performance evaluation and a performance award or a special act 
award. She was free not to give those special awards to the 
Regional Commissioner.
    She had in her possession a final report on the Hats Off 
Program, the employee reward program, and that was final. That 
went final at the end of June. So that was final; all the facts 
were nailed down on that. She had the interim report----
    Chairman Issa. And I think you have made your case that it 
was a discretionary, and the discretion, Ms. Johnson, was yours 
not to grant that. I appreciate that you are able to bifurcate 
some of these, but let's go through it.
    Did you, in fact, relieve Mr. Neely of some of his 
responsibilities because of the interim report, as you stated 
in your opening statement? You made changes----
    Ms. Johnson. It was an opening communication. It was not an 
interim report. I received it through the Deputy Administrator, 
who--and the IG was giving us a--communicating to us that the 
report was--that the investigation was under way.
    Chairman Issa. Okay. Well, let's go through this. And I 
will make this available for the record. Although it does say 
``for official use only,'' I think it is pretty well outed 
here.
    Was it a 30-page report that detailed the excess spending 
and the ceremonies and so on? And were you aware of that?
    Ms. Johnson. I was aware of a PowerPoint slide deck, but I 
did not see it.
    Chairman Issa. So it was not important enough for you to 
see?
    Ms. Johnson. The Deputy Administrator had seen it and 
shared the information in it with us.
    Chairman Issa. Because I am trying to understand. You 
personally were responsible for Mr. Neely's bonus, but you were 
not personally willing to look at the evidence of why he 
shouldn't receive a bonus?
    Ms. Johnson. Again, that was a conduct review----
    Chairman Issa. Okay. I think you have answered that----
    Ms. Johnson. --with a disciplinary process for conduct.
    Chairman Issa. --and I am sorry that you can bifurcate it 
quite that way.
    Mr. Miller, does this one incident represent the only time 
that you have seen the kinds of excesses in this and other 
units? And you don't have to be specific on ongoing 
investigations, but have you seen similar waste, excess stays, 
spending of the taxpayers' money in a way that is inconsistent 
with the requirements of law or at least the intent?
    Mr. Miller. In Region 9, yes, Mr. Chairman.
    Chairman Issa. So this was, to use the term, widespread?
    Mr. Miller. Unfortunately, we don't have a report 
concluding that. We have heard from witnesses that indicate 
that it was widespread in Region 9.
    Chairman Issa. I mean, certainly, 5 days for a ribbon-
cutting with multiple people----
    Mr. Miller. In Hawaii.
    Chairman Issa. --is another example?
    Mr. Miller. Yes.
    Chairman Issa. Do you know, not with specific examples, but 
do you know or suspect or are you investigating other 
misconduct including kickbacks, bribes, and other activities 
that might go to the very question of the objectivity of 
purchasing and other GSA officials?
    Mr. Miller. We do have other ongoing investigations----
    Chairman Issa. Including kickbacks?
    Mr. Miller. Including all sorts of improprieties, including 
bribes, possibly kickbacks, but I would have to check on 
precisely kickbacks.
    Chairman Issa. Well, this committee some years ago, when I 
was in the minority--or I guess I was in the majority, but a 
subcommittee chairman--investigated an organization formerly 
called the Mineral Management Services. And we found that, in 
fact, they were partying with the people they were supposed to 
oversee, they were taking gifts and favors, and they thought 
that they needed to have a close relationship with the people 
they were interfacing with and justified ignoring Federal rules 
as to gifts based on that.
    Is that similar to what you are seeing at GSA?
    Mr. Miller. Yes, Mr. Chairman, very similar. We are 
investigating those sorts of things.
    Chairman Issa. As I recognize the ranking member, I might 
remind everybody that, although we produced scathing reports on 
the Mineral Management Service and tried to get the then-Bush 
administration to make changes and the then-Obama 
administration to make changes, we failed to do so, and the 
Gulf of Mexico was filled with oil because of that agency's 
ongoing failures.
    With that, I recognize the gentleman from Maryland and 
would ask that he have an additional 1 minute.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Miller, as I walked around my district this weekend, a 
lot of people were complaining about having to write checks to 
the IRS. And in that light, Mr. Miller, and based on your 
report, there were thousands or even tens of thousands of 
dollars in improper expenditures in 2010--with regard to this 
2010 conference. GSA employees stayed in luxury resort suites, 
charged expenses for after-hour parties, and purchased food for 
non-GSA employees, just to name a few of the examples.
    One of the recommendations you made in your report is that, 
and I quote, ``Determine whether GSA can recover funds 
improperly paid, such as for meals for non-employees,'' end of 
quote. I think a lot of people agree with that, including 
myself. These employees acted like this was their money, and 
now they should pay it back.
    What can you do to recover the funds from these Federal 
employees?
    Mr. Miller. Congressman Cummings, when Dan Tangherlini 
became Acting Administrator, one of our first conversations was 
about sending a bill to the Regional Commissioner, the former 
PBS Commissioner, and others responsible for these in-room 
parties and other expenses. And I believe that the Acting 
Administrator has sent the bill. He is on the next panel, and I 
believe he would say that he has already at least taken steps 
to send a bill.
    Mr. Cummings. So if they don't pay it back, what happens? I 
mean, do you have criminal or civil remedies to try to get it 
back?
    Mr. Miller. Perhaps civil remedies.
    Mr. Cummings. Okay. Very good.
    Mr. Miller, in several of the interviews your investigators 
conducted, witnesses told you that they were scared that Mr. 
Neely would retaliate against them if they blew the whistle. 
This is actually shocking to the conscience. For example, one 
employee said that if you crossed Mr. Neely, and I quote, 
``then you are in trouble. You know, he threatens you with poor 
performance appraisals,'' end of quote. When another employee 
tried to raise concerns about the extravagant conferences, the 
witness told your investigators that that employee was, and I 
quote, ``squashed like a bug,'' end of quote, by Mr. Neely. 
Those are the kind of threats he allegedly made.
    Are you familiar with these statements?
    Mr. Miller. Yes, I am, sir. Those statements and more.
    Mr. Cummings. Was this fear of retaliation by Mr. Neely a 
significant factor enabling him to continue his inappropriate 
actions for years?
    Mr. Miller. Congressman, it is a significant factor. They 
apparently had a very hostile environment. And when someone 
spoke up, they were, quote, according to a witness, ``squashed 
like a bug,'' unquote. And another witness said that when 
individuals spoke up, they were, I think, quote, ``put down and 
not in a gentle way,'' end of quote. So that is a factor, 
unfortunately.
    Mr. Cummings. And this is the same guy that Ms. Johnson 
gave a bonus to?
    Mr. Miller. Yes, Congressman.
    Mr. Cummings. In fact, it wasn't until the Deputy 
Administrator of GSA, a high-level Democratic political 
appointee, raised this issue to you that Mr. Neely's actions 
came to light. It seems clear that Mr. Neely has a lot to 
answer for.
    Let me ask you one final question. The chairman has written 
to Mr. Neely's attorney, stating that the committee was 
considering conferring immunity on Mr. Neely. And I applaud the 
chairman. We have agreed and he has made it clear--and correct 
me if I am wrong, Mr. Chairman--that he has now indicated that 
he has no immediate plans to go forward with immunity.
    And I want to ask you this question. And I agree with the 
chairman absolutely. Mr. Miller, given what you have uncovered 
about Mr. Neely and his actions, would you support granting him 
immunity at this time and do you think it would be a good idea? 
Now, I have made it clear the chairman is not going to do that, 
but I am just curious.
    Mr. Miller. I agree with the chairman's decision not to 
grant him immunity.
    Mr. Cummings. And so, can you tell us why that is?
    Mr. Miller. Well, I believe that the criminal justice 
system should run its course and that if any charges are 
brought against Mr. Neely he should defend himself. He does 
have a right to--a Fifth Amendment right, and all people are 
presumed innocent until proven guilty. And if such charges are 
lodged against Mr. Neely, I think the appropriate place is in 
the court of law.
    Mr. Cummings. Now, let's go back for a moment to this 
retaliation and these threats. Did you hear people--I mean, 
during your investigation, were there numerous people who said 
that they felt fear?
    Mr. Miller. Congressman, yes. We had a witness that was 
extremely afraid, and we made the witness a confidential 
witness. And that witness, even though she had left and gotten 
a new job, was extremely afraid that even in her new job she 
would experience retaliation.
    Mr. Cummings. And when they used words like ``squashed like 
a bug,'' did you get any idea what they meant by that? I mean, 
were there things that he had actually done to people that came 
to light?
    Mr. Miller. I can't go beyond what the transcript of the 
interview says.
    Mr. Cummings. But I take it that you were convinced that 
this was conduct that was totally inappropriate?
    Mr. Miller. Congressman, we took it very seriously, and we 
believed our witness when he or she said that he or she was 
afraid of retaliation.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. Would the gentleman yield?
    Mr. Cummings. Of course.
    Chairman Issa. I would just like to make sure we both 
understand on the record, when our counsels provided that 
letter to his counsel, it was based on his assertion that he 
might take the Fifth. And we listed a number of things that 
could affect somebody, but most importantly we had the 
conundrum that often happens in the law, which is that until 
you subpoena somebody and they come and they take the Fifth, 
any other consideration can't actually begin.
    So rather than a conclusion that we would consider that it 
was, you know, sort of a form letter to make sure that this 
committee stayed properly within both the D.C. Bar's 
determination, but also, quite frankly, we wanted to make sure 
that it was understood that we were hoping Mr. Neely, who gave 
testimony only 3 weeks ago before the IG, would reconsider his 
willingness to cooperate here. Sadly, he did not.
    Mr. Cummings. Mr. Chairman, I want to thank you for that 
clarification. And I wanted to make it very clear--I mean, that 
helps tremendously, but I wanted to make it very clear that you 
were in no way going to proceed with the immunity, I mean, 
during our discussions. And so----
    Chairman Issa. In none of our investigations to date have 
we ever considered full immunity, transactional immunity. And 
we have not yet even considered use immunity. So I don't expect 
that that will be often, and I would expect that we would 
consult with you well before doing it.
    Mr. Cummings. Thank you very much, Mr. Chairman. I really 
appreciate it.
    Chairman Issa. I thank you.
    And we now go to the former chairman of the full committee, 
Mr. Burton, for 5 minutes.
    Mr. Burton. You can call me ``chairman emeritus.'' I don't 
mind that that much.
    Chairman Issa. Should I emphasize the ``emeritus''?
    Mr. Burton. No, no, I am just kidding.
    Mr. Miller, when you discussed the preliminary report with 
Ms. Johnson, did you go into all the details or most of the 
details in this report?
    Mr. Miller. I believe I did, Congressman.
    Mr. Burton. Okay. This was on May the 17th of 2011?
    Mr. Miller. Yes. That is what my calendar indicates, and 
that is the best of my recollection. We had a meeting----
    Mr. Burton. So she knew about these accusations on May the 
11th, then?
    Mr. Miller. Indeed. And my deputy, Bob Erickson, leaned 
over and said, ``This is very unusual that we would do an 
interim report, but it is so that you can fix future abuses.''
    Mr. Burton. Did you tell her about the bullying that took 
place?
    Mr. Miller. I think we may have alluded to witnesses that 
were afraid of retaliation, but I am not positive. It has been 
about a year ago, so----
    Mr. Burton. Well, that is pretty significant, though. I 
mean, if you were talking to her and there were people that 
were pushing other employees around, it seems to me that you 
probably mentioned it at least.
    Mr. Miller. I believe we did, but----
    Mr. Burton. Okay.
    Ms. Johnson, do you remember May the 11th? Do you remember 
this report?
    Ms. Johnson. Congressman, I apologize. I don't remember 
that meeting, and I don't have access to my schedule that----
    Mr. Burton. Whoa, whoa, whoa. You don't remember the 
meeting?
    Ms. Johnson. Well, the Inspector General and I met with 
some regularity, and I----
    Mr. Burton. Well, this is not an insignificant report.
    Ms. Johnson. No, I am not saying I didn't remember the 
issues. I can't place where we had that meeting, and I can't 
jog my memory.
    Mr. Burton. You can't remember the time, the date?
    Ms. Johnson. No. I don't have my calendar with me.
    Mr. Burton. But he talked about the irregularities----
    Ms. Johnson. Yes.
    Mr. Burton. --and he mentioned the pressure that was put on 
employees, if not bullying. And you didn't take any action 
about that?
    Ms. Johnson. There are a couple of things I must repeat. 
First of all, it was an interim communication----
    Mr. Burton. Yeah, I understand----
    Ms. Johnson. It was not the final report. I asked for the 
investigation, and I wanted to hear the full context. I did not 
want----
    Mr. Burton. Well----
    Ms. Johnson. --to work with nonconclusive information.
    Mr. Burton. I understand. I heard that before. I heard that 
before.
    Ms. Johnson. All right.
    Mr. Burton. But Mr. Neely was still in his position. You 
had been told that he had bullied people or pushed them, and 
you kept him in his position, and you gave him a $9,000 bonus. 
It just seems almost unthinkable. I mean, if somebody came in 
my office and said, ``There is somebody on your staff that is 
pushing other people around on your staff''--and I don't have a 
staff anywhere near the kind of number of people that you dealt 
with. But if somebody was pushing members of the organization 
around, I would have taken action immediately. I certainly 
wouldn't have left him in his position, and I certainly 
wouldn't have given him a bonus.
    So, you know, I wish you could elaborate just a little bit 
more on that, because I think this is really important. I can't 
imagine you seeing this report, talking to Mr. Miller and his 
associate and him telling you this information and you say, 
``Well, it is just an interim report. We will wait until it is 
finalized.''
    Ms. Johnson. You know, I have great respect for the 
Inspector General, and he and I have worked together a great 
deal. We asked for this investigation. One does not interfere 
with an investigation. He was, I assumed, moving quickly and 
would be getting me the final report promptly.
    Mr. Burton. Well, let me just say this. You wanted to see 
the final report. But if you knew Mr. Neely was accused of 
doing this in the interim report and you knew that they have 
alluded to him pushing employees around and threatening them, 
why wouldn't you take him and put him in some kind of a 
position where he couldn't do that while the investigation 
continued?
    I just can't understand why you left him there during the 
next, what, 8, 9 months when you knew what he had done, or you 
had a pretty good idea. And even if you didn't know for sure, 
you would have taken the precaution of putting him someplace 
where he couldn't bully anybody again. I hate bullies, don't 
you?
    Ms. Johnson. I hate bullying, too.
    Mr. Miller. Congressman, if I may for the record, the 
bullying and the coercive atmosphere--we probably laid out the 
facts at the May 17 meeting. We probably didn't get very much 
into the bullying aspect. A lot of that came up later on in the 
investigation. So, to be fair to Ms. Johnson----
    Mr. Burton. Well, did you mention anything about that to 
her?
    Mr. Miller. I don't recall if we did.
    Mr. Burton. Well, you said a few minutes ago that you 
mentioned some coercive action.
    Mr. Miller. It was a coercive atmosphere. We did have a 
confidential witness. And----
    Mr. Burton. And you told her about the confidential 
witness?
    Mr. Miller. No, because the witness is confidential. We did 
tell her what was in the PowerPoint----
    Mr. Burton. Well, let me ask you this. Did you give her 
enough information to where she should have been concerned 
about this guy?
    Mr. Miller. Absolutely.
    Mr. Burton. Okay. Well, that is the point.
    If there was concern about Mr. Neely, why didn't you put 
him in a position where he couldn't do what he was doing, at 
least during the interim for the rest of the investigation?
    Ms. Johnson. Do I only have 3 seconds?
    Mr. Burton. No, go ahead. I am sure he will let you finish 
your answer.
    Chairman Issa. Take the time you need.
    Ms. Johnson. Thank you. All right.
    When I asked for the investigation, this is a very 
serious--when Susan Brita requested the investigation and as we 
received that interim communication, it was very clear that it 
was very serious. And I did not want to move until I had a 
formal, official, complete, you know, conclusive report.
    At the same time, I did a number of things to manage the 
situation. First of all, I put a Regional Administrator into 
Region 9 supervising immediately Mr. Neely. He did not have an 
immediate supervisor in the region, and we appointed a Regional 
Administrator in June, relieving him of his second job and 
putting direct supervision in there.
    We also immediately appointed new general counsel for the 
region when that person retired, so that I wanted to be sure we 
had a good team in the region that I could trust around them.
    We also did a number of other things around management 
controls and conference management and so on I can get into. 
But it was very important to me not to, in any way, interfere 
in a way that would upset the investigation that the Inspector 
General was doing.
    Now, you have to understand, I did not think it would take 
9 more months to complete. I thought it looked pretty complete 
from what I was hearing, and I wasn't expecting to wait that 
much longer. So I--so those were the circumstances under which 
I was operating.
    Chairman Issa. Thank you.
    My staff has asked me just to make sure one thing is clear. 
Earlier you said under oath that you ordered the investigation; 
then later you said Susan Brita ordered it.
    Ms. Johnson. I am sorry. Susan Brita, my Deputy 
Administrator----
    Chairman Issa. Had actually ordered it.
    Ms. Johnson. --who had--yes. She asked the Inspector 
General to investigate. I had designated to her the role of 
interacting with the IG, so----
    Chairman Issa. Okay. So it is correct that Susan Brita did 
it.
    Ms. Johnson. --she was doing it for me.
    Chairman Issa. Okay.
    Ms. Johnson. She did it, yes.
    Chairman Issa. No problem. I just want to make sure that we 
didn't have any inconsistency there.
    Ms. Johnson. Sorry.
    Chairman Issa. No, no. No problem. Our goal here is just to 
get the record accurate. And there will be mistakes made, and 
we just want to make sure they are clarified when they occur.
    With that, we recognize the gentlelady from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. I appreciate this 
hearing.
    I have got a couple of points to make in my brief period. 
First, I want to assure Mr. Foley that even members of the 
Oversight Committee can take a joke with respect to the joke 
regarding my role on the committee, which has direct oversight 
over GSA. Far from belittling me, I think that the joke 
complimented me for my oversight role because it essentially 
said Norton is on the phone already with you with regard to one 
of the abuses that were----
    Chairman Issa. Your clock will begin now because we figured 
that was the joke portion.
    Ms. Norton. Thank you, Mr. Chairman.
    I would just like to clarify when actions should have been 
taken because I have an email, Mr. Miller, from a man who 
appears to be your deputy, Mr. Erickson, who, on May 3rd, 2011, 
did issue the interim report and said, and here I am quoting 
him, ``Our purpose in issuing the interim report was to alert 
GSA to potential waste and abuse so GSA could take steps to 
avoid future issues. Please be advised that the investigation 
is ongoing, and no personnel actions should be taken until you 
have received the final report.''
    Now, with respect to some notion that maybe the officers of 
the agency or even the administration should have taken action, 
is it your view that personnel action could not have been taken 
until April, when the final report was released or had become 
known?
    Mr. Miller. Representative Norton, I believe the email is 
dated July 25, 2011.
    Ms. Norton. It is. But it says, on May 3rd.
    Mr. Miller. Yes. Well, we gave the interim report on May 
3rd to Ms. Johnson and the Deputy Administrator, Susan Brita. 
On May 17th, we personally briefed the Administrator. And on 
July 25--and again, there is a second report. The second 
report----
    Ms. Norton. When was the final report alluded to in this 
email, when was that final report received?
    Mr. Miller. The final report on the Western Regions 
Conference is April 2nd. That is the absolute final date.
    Ms. Norton. That is my question. Nothing could have taken 
place until that final report.
    Mr. Miller. But if I could explain----
    Ms. Norton. Yes.
    Mr. Miller. The email deals with the Hats Off report as 
well. That was an employee reward program. And we gave a draft 
report on the same day in May.
    Ms. Norton. So does it allude to both or to only one? I 
want to get onto my next question.
    Mr. Miller. I believe that Mr. Leeds had confused the two.
    Ms. Norton. So what does it refer to in terms of a 
personnel action?
    Mr. Miller. Okay. In terms of personnel action, it refers 
to the Western Regions Conference report.
    Ms. Norton. That was my question. Thank you. That was 
precisely my question. No action should be taken until the 
final report.
    Let me go onto the next question, because I am seriously 
concerned about whether we have a culture in the Western 
Region, whether we have a culture in the GSA. One incident of 
this kind, one event, one conference of this kind has outraged 
the public enough.
    But there were suggestions, Mr. Miller, in your report, 
that this was not an anomaly, that similar events or 
conferences had taken place, that in 2006 and 2008, there had 
been conferences with fairly lavish catering, that this was not 
an outlier but rather consistent. Are you looking at the 
conferences of the Western Region in 2008, in 2006? Do we have 
a culture in the Western Region that needs closer inspection 
beyond this particular conference?
    Mr. Miller. Representative Norton, we are looking at 
conferences in Region 9. There are many conferences in Region 
9. There have been Western Regions----
    Ms. Norton. That is the Western Region?
    Mr. Miller. No, there is no Western Region, first of all, 
of GSA.
    Ms. Norton. So are we talking about the same thing? I don't 
want to waste time on----
    Mr. Miller. No, we are not. There are 10 regions of GSA and 
the District of Columbia, which would make it 11. It appears 
that Regions 7, 8, 9, and 10 got together to do a conference, 
and they did the conference every 2 years. They called the 
conference the Western Regions Conference. As far as I know, 
there is no such thing as an Eastern Regions Conference or a 
Southern Regions Conference. It is only the Western Regions 
Conference.
    Ms. Norton. So have you looked at those conferences that 
were alluded to in your report in 2008, in 2006? Or if not, do 
you have any intention to look at those conferences to see 
whether a culture has developed or was developing in these 
regions in the western part of the United States?
    Mr. Miller. Representative Norton, we are looking at 
conferences in Region 9 right now. The older Western Regions 
Conferences will, number one, be old. Already the 2010 
conference is----
    Ms. Norton. Do you have any notion that there was a culture 
there that needs to be examined and to be rooted out? That is 
what I am really getting at, Mr. Miller.
    Mr. Miller. The witnesses, many of the witnesses say that 
the Western Regions Conference in Las Vegas was not materially 
different than the previous Western Regions Conferences, I 
believe New Orleans, in Oklahoma, and at Lake Tahoe.
    Chairman Issa. If the gentlelady would yield?
    Ms. Norton. I yield to the chairman.
    Chairman Issa. Ms. Norton, we have sent 23 additional 
letters to other agencies. The committee intends on 
investigating the whole practice of conferences, team 
building----
    Ms. Norton. You mean other regions or other agencies?
    Chairman Issa. No, no, other agencies.
    Additionally, I certainly would like to make the record 
very clear, since other GSA regions or groups that could make a 
region didn't seem to have these conferences, the first 
question under any administration should be, why does one need 
it? The second one that begs the worst question in some ways 
when I look at New Orleans as a location, if you are the 
western States, who would think that going to New Orleans was 
the logical place to go if in fact, as I understand, New 
Orleans is not within any of those groups' regions? So I 
certainly think that as we look at a pattern that apparently 
began and continued probably through every administration since 
Hoover, that what we want do is bring it to an end under this 
administration.
    But I think the gentlelady makes a very good point in her 
questions. And we are going to be expansive in our look at 
unnecessary conferences and meetings, perhaps even challenge 
coins paid for at the taxpayers' expense so they can give them 
to each other. And I thank the gentlelady.
    With that, we go to the gentleman from Ohio, one of the 
gentlemen from Ohio, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Ms. Johnson, I was fascinated by your opening statement 
because you said you had been at GSA during the Clinton 
administration and returned during--after the first year of the 
Obama administration, but it was not the same GSA that you had 
left. And I want to agree with you. Because I believe that when 
you left the Clinton administration and returned then after the 
first year of the Obama administration, you would have been 
joining an administration that had a completely different 
culture than the Clinton administration, a completely different 
culture than the Bush administration.
    This is an administration that believes that when 
government spending is occurring, when taxpayers' dollars are 
being spent, that jobs are being created. That was the whole 
crux of the stimulus, the stimulus I voted and many people in 
this room voted against, is because the American people 
actually believe that when taxpayers' dollars are being spent 
that debt is being created.
    Now, I have some examples of that spending that GSA was 
doing. And Mr. Foley, you had said you weren't aware that the 
tuxes were being paid for by the taxpayers.
    This is one of those examples of GSA spending, Ms. Johnson, 
under your leadership. It includes the conference logo. And 
everyone was given one of these. This is apparently, I am told, 
a blackjack dealer's vest so that everybody could feel as if 
they are in character when they get to the conference. In 
addition to that, they were given a participatory directory 
that has everybody's picture. And in it, they are assigned 
characters and roles. On the page that I have opened here one 
is assigned Cher; one is assigned Sammy Davis, Jr.; Elvis; and 
Celine Dion.
    Additional items were given to the people that were there, 
including a then and now book on Las Vegas signed by Mr. Neely 
himself, thanking them for being there. By the way, this was 
printed in China. The vest was made in China. They were given 
other party favors while they were there. All GSA spending, 
taxpayers' dollars spending. And they were given a coin, a 
commemorative coin, we will call it a gambling chip for this 
aspect. It is a commemorative coin commemorating the stimulus; 
again, you know, a program that most Americans believe did not 
work. It is celebrating a program that has not created jobs in 
Ohio and that we have not seen a turnaround in our economy.
    But the question that I have is, how much did these items 
cost, the tuxedo, the coin, the book, the participatory 
directory? And were stimulus dollars used for this?
    Now, I was talking to Brad Miller earlier, and I appreciate 
his hard work on this, and I want to acknowledge that we have 
Jo Ann Emerson here, the chairman of the Appropriations 
Subcommittee under which GSA falls. And it would seem to me 
that, one, we have a problem that all these items are being 
purchased and made from China, so we are stimulating China and 
not the United States. Second thing is, what slush funds exist 
in GSA that these types of moneys could be moved? It is not 
just an issue of who approved it. Who in the organization would 
ever have that type of authority to use taxpayers' dollars to 
buy a blackjack dealer's vest with an event logo on it?
    So, one, I want to know from you, Ms. Johnson, you know, 
under you, how is it that something like this gets approved for 
expenditure? What type of funds were used to buy these things? 
What is your policy with respect to buying things made in 
America, since all these things were apparently made elsewhere, 
including the T-shirts that the participants were given, which 
were made in El Salvador?
    And also I would like Mr. Robertson to give us an answer 
on, that he will give us a commitment that he will tell us the 
source of these funds that were used to buy these. And 
specifically in GSA's budget, how is it that this type of money 
could be laying around so that it could be used in this slush 
fund manner? This isn't just an approval process. This isn't 
just someone brazenly violating their authority. This is an 
issue of money and a budgetary process being available in GSA 
to be moved elsewhere when Congress has a tremendous amount of 
priorities and needs in this country that those moneys should 
have been applied to, in addition to reducing our national 
deficit annually.
    Ms. Johnson.
    Ms. Johnson. Mr. Congressman, I am just as appalled as you 
are by those examples of expenditures. When I learned about the 
extent of them and the nature of them, I began disciplinary 
action, some of which is confidential and I cannot share at 
this point. I fired the two political people who were in the 
chain of command to me, and I resigned.
    Chairman Issa. I think you had a slush fund question in 
there, too.
    Mr. Turner. Yeah. Mr. Robertson.
    And also Ms. Johnson, one other thing before we go on to 
Mr. Johnson, the fact that you continue to say that you don't 
want to interfere with an investigation by not approving a 
bonus is so outrageous that I think everyone in the room is 
shocked. Not approving a bonus is not interfering with an 
investigation.
    Mr. Robertson, will you assure us that you will tell us how 
these moneys are available in GSA so that we can on a 
congressional basis stop it?
    Mr. Robertson. Yes. I am happy to get that information to 
the committee about the budget where these items were 
purchased. My understanding from the IG's report is that one of 
the glaring problems that we had at the time was that the 
budgets were diffused out into the regions. Since then, as part 
of the response to the report, we have pulled the budgets back 
into the central office CFO so that there is centralized 
control over those budgets.
    Mr. Turner. Thank you.
    Mr. Miller. Congressman Turner?
    Chairman Issa. Thank you.
    We now go to the gentleman from Virginia--I am sorry, Mr. 
Miller, did you have something?
    Mr. Miller. I am sorry.
    Chairman Issa. Of course.
    Mr. Miller. If I may, I just wanted to clarify that on page 
11 and 12 of the report, we identify those items. We identify 
the $1,840 for the vests for 19 regional ambassadors to wear 
and the $6,325 on the commemorative coins. And as far as we can 
tell, no stimulus money was used. The money was paid on 
government purchase cards and taken out of the Federal Building 
Fund building operations.
    Chairman Issa. Just a quick follow-up, very quick. So that 
is $100 apiece for the vests, and the challenge coin-looking 
things are about 20 bucks apiece, when those of us who buy them 
out of our own pocket typically spend less than a dollar 
apiece. Is that roughly right? They were about $20 apiece, 300 
of them coming to $6,300?
    Mr. Miller. Yes, $6,325 is the total for the coins. I would 
have to go through the math. I am not as quick on the math as 
you are.
    Chairman Issa. Mr. Connolly, do you give out challenge 
coins?
    Mr. Connolly. I haven't done that.
    Chairman Issa. You know, down at Quantico, you can have 
them made with your name on them for about a dollar. You got to 
ask how GSA managed to spend $20 having them made.
    With that, the gentleman is recognized.
    Mr. Connolly. If I could say to the chairman, I am told 
that I will get a discount if we have your face on one side and 
mine on the other.
    Chairman Issa. That certainly will give great value for its 
rarity.
    Mr. Connolly. That is what I think.
    Thank you, Mr. Chairman.
    And Mr. Chairman, I want to thank you for your opening 
statement. I think you struck exactly the right note.
    This isn't an opportunity for partisan exploitation. This 
is an opportunity for the Oversight and Government Reform 
Committee to look at an agency where something went dreadfully 
wrong.
    And I think, Mr. Chairman, you struck just the right tone, 
as did the ranking member. And I thank you both for the way you 
began this hearing.
    Mr. Miller, you are the Inspector General of GSA. How long 
have you been in that job?
    Mr. Miller. Congressman, I was confirmed by the Senate in 
July 2005.
    Mr. Connolly. 2005. Between 2005 and when Ms. Johnson's 
office alerted you, were you ever aware of the fact that excess 
spending and raucous behavior and perhaps inappropriate use of 
resources was going on in the agency anywhere?
    Mr. Miller. We always look for that, sir.
    Mr. Connolly. I mean, I am specifically talking about this 
kind of conference. Because as you pointed out, this isn't the 
first time this has happened. It happened in New Orleans. It 
happened in some other locations. Did anyone at any point ever 
bring to your attention, or did you discover independently that 
this kind of thing was going on so that you could intervene to 
prevent when it sadly came to a crescendo here?
    Mr. Miller. We rely on GSA employees to tell us. We did not 
have hotline complaints about this conference. And I do commend 
the Deputy Administrator for bringing it to our attention.
    Mr. Connolly. Susan Brita.
    Mr. Miller. Susan Brita.
    Mr. Connolly. She did that at the direction of the 
Administrator. Is that correct? Is that your understanding?
    Mr. Miller. That is my understanding. But we have the 
Administrator here.
    Mr. Connolly. I am just asking you as the IG what your 
understanding was. Was your understanding Ms. Brita was acting 
alone or at the direction of Martha Johnson?
    Mr. Miller. I viewed the Deputy Administrator as the alter 
ego of the Administrator.
    Mr. Connolly. So the sequence was, though you had been on 
the job since 2005, the first anybody in the agency alerted you 
that this kind of excess, to this kind of occasion, was when 
Susan Brita, acting on Ms. Johnson's behalf, alerted you to the 
fact that we think something is wrong here.
    Mr. Miller. Ms. Brita came to our office in December 2010 
and alerted us. We did not get any hotline reports on it.
    Mr. Connolly. Right. And when were the events in question? 
When did they occur?
    Mr. Miller. In October 2010.
    Mr. Connolly. So about a month and a half or so later?
    Mr. Miller. Yes.
    Mr. Connolly. Did she indicate to you how she was made 
aware of these--of this information?
    Mr. Miller. Well, she said she had heard rumors and heard 
things, overheard conversations.
    Mr. Connolly. Now, your review of this matter, if I 
understand Ms. Johnson correctly, took about 9 months. Is that 
correct?
    Mr. Miller. We started in earnest when Ms. Brita brought 
the complaint forward. You do have to understand that there are 
a lot of documents to go through. Part of the problem is that 
the funds came from different sources. As the previous question 
illustrated, we had to identify funds on purchase cards, in 
building and operation funds, and money budgeted to the 
conference.
    Mr. Connolly. Right. So it is a complicated affair.
    Mr. Miller. It is. And when you talk to witnesses, you 
know, in turning over the proverbial stone, you find 50 more 
stones, and you never know what is going to crawl out from 
under them.
    Mr. Connolly. So it took 9 months, though, to be fair and 
to go through all of that.
    Mr. Miller. Yeah. Sure.
    Mr. Connolly. Is that correct?
    Ms. Johnson indicated in her testimony that she was a 
little surprised it took that long. She also indicated that 
there were many conversations and meetings between you about 
this and other matters, of course. Did you have conversations 
with the Administrator about the length of time it was taking? 
And were you giving her interim reports as to what you were 
finding?
    Mr. Miller. I believe we had a few. I also--she mentioned 
the Regional Administrator was appointed in Region 9. In August 
of 2011, I personally briefed the Regional Administrator about 
this, shared the interim report, and I advised her to get a 
handle on the Regional Commissioner's travel and perhaps even 
have the financial officer take a look at his travel.
    Mr. Connolly. Thank you. I have only 25 more seconds. I am 
going to ask you and Ms. Johnson real quickly, and maybe the 
chairman will indulge your answer. But one of the critiques of 
GSA is there is too much autonomy for these 10 regional offices 
and not enough top-down management. I wonder real briefly if 
the two of you would address that.
    Ms. Johnson. In light of this incident, I would agree that 
there was, and therefore, there needed to be more central 
control of the financial structures, yes.
    Mr. Miller. I agree as well.
    Mr. Connolly. Thank you, Mr. Chairman. I give back my few 
seconds.
    Chairman Issa. Would the gentleman yield?
    Mr. Connolly. Absolutely.
    Chairman Issa. What is the highest-ranking, highest-paid 
person in each of these 10 areas? In other words, when we talk 
about decentralized control, we are talking about relatively 
large amounts of people in each of these regions. What would be 
the highest paid--for example Mr. Neely, what was his pay, or 
the person you put in over him in that region? What was their 
pay?
    Ms. Johnson. I am sorry, Congressman, I don't know. I can 
certainly see if I can get you that information.
    Chairman Issa. Mr. Robertson, would you know?
    I think the gentleman hit on something, which is we 
appreciate things being centralized, but one of the questions 
is, do we have high-ranking, high-paid civil servants in these 
regions? And if we are going to be pulling everything back 
because they are not responsible, perhaps we are paying more 
than we should for responsibility not met.
    Mr. Robertson?
    Mr. Robertson. I am happy to get the exact numbers for the 
committee, but my understanding is that in I believe all the 
regions the Regional Commissioners are paid more than the 
Regional Administrators.
    Chairman Issa. But more than $100,000? Significantly.
    Mr. Robertson. I believe both of them are over that number, 
yes.
    Chairman Issa. Thank you.
    Mr. Miller. Mr. Chairman.
    Chairman Issa. Yes.
    Mr. Miller. The Regional Commissioners are career SES, 
Senior Executive Service, positions. And they do pay quite a 
bit. The Regional Administrator is a political appointment at 
the GS-15 level.
    Chairman Issa. Which would put them quite a bit below an 
SES.
    Mr. Chaffetz is recognized for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Ms. Johnson, with whom did you collaborate in the 
development of your testimony that was submitted? Did you 
collaborate with anybody in the development of your testimony?
    Ms. Johnson. I wrote my testimony, and I discussed it with 
my lawyer.
    Mr. Chaffetz. Anybody at the White House?
    Ms. Johnson. No.
    Mr. Chaffetz. Anybody within the GSA?
    Ms. Johnson. No.
    Mr. Chaffetz. Question about why not fire Mr. Neely. You 
know, he is still being paid by the taxpayers. He is on 
administrative leave. He is still taking his salary. This is 
somebody who took a conference with a budget of $250,000 and 
made it over $800,000; spent $75,000 on a bike building 
exercise, where he built a grand total of 25 bicycles for 
$75,000; $2,000 in-room party; yearbook and a souvenir book at 
a cost of $8,000 to the taxpayer; $6,000 for the stimulus coins 
that were given out at one of the two $30,000 parties that were 
given--keep in mind, there were only 300 people at this; and a 
Top Hat program, a recognition program that has fraud. So my 
question is to the Chief of Staff is, why is he still an 
employee of the United States Government?
    Mr. Robertson. My understanding is that disciplinary action 
has been begun against several individuals involved in planning 
and executing the Western Regions Conference.
    Mr. Chaffetz. Why does it take so long? You were given this 
report in February. Correct?
    Mr. Robertson. Yes. Correct.
    Mr. Chaffetz. What does it take to actually be fired from 
the GSA?
    Mr. Robertson. There is a long-standing due process that 
career employees are entitled to as part of their employment. 
We have begun that process, among other disciplinary actions, 
for several individuals that were involved in planning and 
execution of this conference.
    Mr. Chaffetz. My question is, why did he get a bonus? 
Didn't the President of the United States issue a pay freeze?
    Mr. Robertson. I wasn't part of that decision.
    Mr. Chaffetz. You are the Chief of Staff. You are telling 
my you are not involved in any sort of bonuses.
    Mr. Robertson. I was not involved in that bonus.
    Mr. Chaffetz. Who was?
    Mr. Robertson. The Administrator. And there is a 
performance management review.
    Mr. Chaffetz. Ms. Johnson, why were you giving out bonuses 
when the President said there was a pay freeze?
    Ms. Johnson. The senior executives were entitled to bonuses 
under our--were entitled to bonuses. I don't believe the pay 
freeze affected those bonuses.
    Chairman Issa. Would the gentleman yield for just one 
question?
    Mr. Chaffetz. As long as it doesn't take some of my time.
    Chairman Issa. The gentlelady just seemed to say entitled. 
I thought it was that they were possibly going to be granted. 
Entitlement seems to be a question the gentleman may want to 
follow up on.
    Ms. Johnson. I apologize. I did not mean entitled.
    Mr. Chaffetz. Oh, I think you did mean entitlement. I think 
that is the fundamental problem that America gets and that 
government doesn't get. There are a lot of good Federal 
employees who work hard; they are patriotic, and they are 
frugal with their money. But when you see this widespread abuse 
of money, and then you, as the former Administrator, said, 
well, they were entitled to it, that is where there is 
frustration just steaming out of our ears. It is totally 
unacceptable.
    And for the President of the United States to look the 
American people in the eye and say, well, we got a pay freeze 
in place while you are getting bonuses and going on trips is 
totally unacceptable.
    Tell me about--let's look at the budget here. If you could 
put up the budget graphic. Is there anything wrong with this 
number that you see over here? Three point eight that should be 
billion dollars spent by the administration. These are outlays 
in the first 3 years. If there is anything wrong that you see 
with that graphic, please let me know. This is the last 3 years 
of the Bush administration; the first 3 years of the Obama 
administration.
    I am going to continue on. If you want to get back to me on 
that, that would be great.
    Ms. Johnson, can you tell me about Results.gov? You 
highlighted it as one of the great accomplishments of the GSA. 
What does it do?
    Ms. Johnson. The Results.gov, among other online Web sites, 
allows Federal Government employees, as well as U.S. citizens, 
to look at and access data about their government.
    Mr. Chaffetz. So when I type in www.Results.gov, why does 
it come up blank?
    Ms. Johnson. I don't know, sir.
    Mr. Chaffetz. Mr. Robertson, you are the Chief of Staff.
    Mr. Robertson. I am unfamiliar with the Results.gov Web 
site.
    Mr. Chaffetz. Now, this is the disconnect. You are the 
Chief of Staff; she is the former Administrator. She cites it 
as one of just a handful of great accomplishments at the GSA, 
and you don't even know what it is?
    Mr. Robertson. I believe that the Administrator--former 
Administrator's reference to data was about Data.gov.
    Mr. Chaffetz. That is not what she said. She said 
Results.gov. And it is blank. It is blank. It is something that 
actually the Bush administration does, but I don't see it 
there. I didn't even go to it until you highlighted it in your 
testimony. And I would appreciate the GSA getting back to us. I 
think that is terribly unacceptable.
    Location Solvers. My understanding, Mr. Robertson, is that 
the GSA employs people that are full-time planning 
coordinators. Is that correct?
    Mr. Robertson. That is my understanding, yes.
    Mr. Chaffetz. Okay. So in this particular instance, 
Location Solvers is hired, and they were rewarded a $12,000 
finder fee. Why are we hiring full-time people to be party 
planners only to go out and hire a service that then gets a 
$12,000 commission? Don't you think they would have given that 
commission back to the American taxpayers had we done this 
directly?
    Mr. Robertson. I do not understand that action either. That 
was one of the outlying----
    Mr. Chaffetz. I struggle to figure out what you do 
understand and what you do know. You are the Chief of Staff. We 
expect you to understand these things.
    I yield back, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now recognize the gentleman from Kentucky, Mr. Yarmuth, 
for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I also would like to commend you on this hearing and your 
opening remarks, and the ranking member as well. I think this 
is a very constructive hearing. I want to express my outrage at 
the subject under investigation not just for myself, but on 
behalf of the 13,000 current and retired Federal employees in 
my district, because as Mr. Chaffetz said, we have many, many 
very responsible public employees, Federal employees who I know 
are embarrassed by association because of these instances.
    I have a question about this whole idea of conferences and 
the extent to which this practice may be common, not just in 
GSA but across government. You already said this is not 
something that is held in every region, this type of 
conference. But do you have any idea of the number of 
conferences, kind of internal conferences that are held 
throughout the GSA organization? Ms. Johnson or Mr. Robertson?
    Ms. Johnson. I don't have a good sense of the numbers. The 
numbers of conferences that I attended over my tenure I can 
talk about. They included about five internal conferences over 
26 months.
    Mr. Yarmuth. Over 26 months. That is a fairly frequent 
number. Are there guidelines within GSA for conducting 
conferences? It is kind of ironic, I think, that you have the 
agency that is responsible for facilities, and at least in this 
particular case they had to go to an outside--a private 
facility outside of--if that is an example, Mr. Chairman, of 
government spending, I guess stimulating the economy but 
probably not in the right way if you have Federal facilities 
that might house these events.
    Ms. Johnson. Yes, there are various policies and rules, per 
diem, for example, how much people can spend when they travel, 
what they can be reimbursed for. Yes, there are.
    Mr. Yarmuth. Would there be, for instance, any rules 
regarding the things that went on here? Like, for instance, the 
hiring of a mind reader, entertainment, bling, as we call it, 
these souvenirs; are there any guidelines for those types of 
acquisitions?
    Ms. Johnson. I am not familiar with direct guidelines 
around mind readers and commemorative coins. I am aware that 
our senior executives should be operating under the common 
sense of no waste and would be preserving their budgets for 
other things.
    Mr. Yarmuth. Mr. Miller, you have been involved in 
government for quite a long time. Are there rules in other 
agencies that you may be familiar with that are more specific 
as to the conduct of internal conferences or events?
    Mr. Miller. I think the rules governing GSA and GSA policy 
says that they are to plan conferences with an eye to 
minimizing costs. And that is from the GSA policy. So, in terms 
of minimizing costs, things like commemorative coins would be 
impermissible.
    We do have a discussion of rules within the final report. 
And when it comes down to mind readers, or I think he billed 
himself as a motivational speaker, in terms of the report, we 
stayed away from the quality of--any quality judgments on the 
type of training because we are not the experts in Public 
Buildings Service, but the rules do allow a motivational 
speaker. Now, if he was mind reading or entertainment, that 
would not be permitted.
    Mr. Yarmuth. So, in terms of both the activities and the 
ancillary materials that were provided in here, there were in 
your estimation, Mr. Miller, violations of agency rules.
    Mr. Miller. Yes. And we have outlined them in our report.
    Mr. Yarmuth. And also in terms of the procurement rules 
regarding the acquisitions.
    Mr. Miller. Yes, sir.
    Congressman, they gave a bid of one bidder to another 
bidder. And that is about as much against the rules as you can 
come up with.
    Mr. Yarmuth. Now, a question, because obviously the GSA is 
involved in a lot of contracting throughout the country, does 
your office, does the GSA have sufficient auditing capabilities 
to deal with not just the auditing of a conference that the 
agency conducted for itself but for the many other activities 
that it is involved in, its primary responsibilities?
    Mr. Miller. We do all the auditing at GSA. We do not rely 
on DCAA, except for a very exceptional circumstance. My office 
has about 300 employees. We have 70 special agents who would 
actually interview individuals. And I think they have done a 
tremendous job with this report. And I think they moved at 
tremendous speed, often working 18-hour days and weekends. And 
I do commend the special agents and the forensic auditors that 
we have.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Pennsylvania, Mr. Kelly, 
for 5 minutes.
    Mr. Kelly. I thank the chairman.
    Again, thank you for calling this hearing.
    You know, this is one of those unusual things. And Mr. 
Cummings was talking about being back in his district and 
walking the streets last week. And I got to tell you the same 
thing happened to me in northwest Pennsylvania.
    I wonder if we could, we have a slide showing I believe the 
mission statement, the visions and goals. That is a real eye 
chart. Let me go through----
    Chairman Issa. Perhaps the gentleman could read from it.
    Mr. Kelly. I am not going to read from that. I am not that 
good. Let me just say the mission, GSA mission is to use 
expertise to provide innovative solutions for our customers in 
support of their missions and, by so doing foster an effective, 
sustainable, and transparent government for the American 
people. Then it goes into the vision part. And when you go down 
to the third bullet point: GSA envisions a government that 
works ever better for the American people. It is fueled by two 
powerful sparks for change, namely sustainability and 
transparency. The former is a doctrine for managing resources 
with utmost care and an obsession with no waste. The latter is 
a doctrine for inviting our collective intelligence and our 
wisdom to work.
    Then it goes down to strategic goals, and it goes through 
what the GSA will test innovative solutions in its own 
operations, offer those solutions to other agencies through its 
government-wide contracting and policymaking authorities, which 
we find out they don't follow.
    You know, as I look through this, there is no wonder that 
the American people have lost faith in their government.
    Now, let me ask you something, Ms. Johnson. To date, there 
was at least four Regional Administrators placed on 
administrative leave. Is that correct?
    Ms. Johnson. Regional Commissioners, I think. Did you say 
Administrators?
    Mr. Kelly. Regional Administrators.
    Ms. Johnson. No, the Regional Administrators----
    Mr. Kelly. Jeff Neely, Paul Prouty, Robin Graf, and Jim 
Weller.
    Ms. Johnson. Those are Regional Commissioners.
    Mr. Kelly. Okay. So they are on administrative leave.
    Ms. Johnson. Yes, they are from the Public Buildings 
Service, yes.
    Mr. Kelly. Okay. But they are still being paid.
    Ms. Johnson. I believe so, but I am not there.
    Mr. Kelly. Mr. Neely is being paid. He is on administrative 
leave.
    Ms. Johnson. On administrative leave, my understanding is 
the person is----
    Mr. Kelly. Okay. You have any idea what these folks make?
    Maybe, Mr. Robertson, you are Chief of Staff, you surely 
would know what these people make.
    Mr. Robertson. I am happy to provide the exact numbers, but 
I believe they are all at the top of the SES scale.
    Mr. Kelly. Okay. So what is the top of the scale?
    Mr. Robertson. I believe it is close somewhere in the 170 
range.
    Mr. Kelly. One hundred seventy range. You know, Mr. 
Chaffetz made some good points. You know, I got to tell you 
that, thank God, this time what happened in Vegas didn't stay 
in Vegas. The disappointment of these hardworking American 
taxpayers to know that the GSA, the watchdog, the people who 
are going to make sure--listen, they have an obsession with no 
waste. To see this go on day after day in our government, 
asking people to give more of what they have, dipping into what 
they have to support a government that wastes more and more of 
their money.
    I don't think anybody minds paying taxes if the money is 
well spent. But they sure as heck resent the fact that a 
government that tells them they have to pay more of their fair 
share cannot cut back anywhere. In fact, when you folks come 
in, and you are in charge of it, you can't even answer the 
questions who did what, when did you know about it, what did 
you decide to do about it? Who the heck is the watchdog? And if 
the watchdog is being fed so well, why does it even care what 
goes on?
    And I got to tell you, it is so easy to spend somebody 
else's money, especially when you are not held accountable. I 
think it is absolutely ridiculous that the American people have 
to sit back and watch this. Ms. Johnson, you have a great 
record of public service. I read your resume. This is very 
impressive. What did you do in your last job before you came 
here?
    Ms. Johnson. I was at the Computer Sciences Corporation.
    Mr. Kelly. In December of 2008--in 2008, you were on the 
Presidential transition team and then came onto the General 
Services Administration.
    Mr. Robertson, tell me what you did before you came in the 
GSA.
    Mr. Robertson. Before entering GSA or before the current 
position that I hold?
    Mr. Kelly. Well, before the current position you have now. 
Just go a through a little bit, maybe like the last 5 years, 4 
years of your career.
    Mr. Robertson. Of my career?
    Mr. Kelly. Yeah.
    Mr. Robertson. Immediately prior to the position I hold 
now, I was the associate administrator for government-wide 
policy within GSA. Prior to that, I was the White House liaison 
inside GSA. Immediately prior to joining GSA, I was the deputy 
working group lead on the Presidential transition team for----
    Mr. Kelly. Okay. Let me just say one thing. For somebody in 
administration that talks about a clear and transparent 
government, a government that is more answering to the American 
taxpayers, I have got to tell you, as a guy who has only been 
here 14 months, thank God some of us are here now, because 
apparently you folks that made a career out of spending 
taxpayer money have got some kind of a magic shield, or you 
stay inside this bubble that allows you to do those things 
without absolutely any, any feeling of wrongdoing. And to watch 
what is going on and watch those videos of what happened and 
knowing that the people that I represent in northwest 
Pennsylvania work hard, some of them two jobs--two jobs for 
mom, two jobs for dad--to make ends meet, and they watch their 
tax dollars being spent and wasted in this way; it is an 
absolute shame to have to sit here in this meeting today and 
listen to that and watch as we take the Fifth, okay, fine, that 
is your Constitutional right. I am not sure, cloudy, murky. I 
don't know; it happened before in other administrations. All I 
was just doing was kind of moving the ball up. It is pathetic. 
And I got to tell you I can't tell you how disappointed I am.
    And with that, I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I mean, this outrage that we are hearing today is genuine, 
and it is bipartisan. And I don't need to feed into it any 
more, except that this notion that the GSA should act like 
private corporations; I don't think anybody's pleased when they 
see private corporations, Tyco, AIG, and others out there, 
wasting their corporate money. The shareholders seem powerless 
to do much about it. Taxpayers should be upset about that 
because, of course, somebody is probably writing it off as a 
business expense. But 100 percent of this wasted money is on 
the taxpayer. And that is why people are so upset. It is not 
even masked; it is their taxpayers' money being wastefully 
spent.
    And I have a lot of government employees and GSA employees 
in my area that work hard every day, and work honestly and 
don't waste any money; haven't had a raise for a number of 
years; had their pensions attacked by about 15 bills down here 
as if they are the problem, when in fact it is these outlying 
situations that are just ridiculous. And I think it goes deeper 
and more systemic than just one individual on that.
    Let me ask the former Administrator, you were actually 
nominated at what point in time by President Obama?
    Ms. Johnson. I was nominated early in 2009.
    Mr. Tierney. And at that time, was the position of the GSA 
Administrator, was it vacant?
    Ms. Johnson. There was no confirmed Administrator.
    Mr. Tierney. And there hadn't been for a couple of years, 
right?
    Ms. Johnson. I believe--I am always bad with chronology--it 
had maybe about a year-and-a-half, maybe a year.
    Mr. Tierney. Year, year-and-a-half before you were 
nominated. How long between the time you were nominated and the 
time the Senate actually voted on your position?
    Ms. Johnson. The Senate, I had my hearings in June of 2009, 
and I was voted unanimously in February 2010.
    Mr. Tierney. So over 9 months?
    Ms. Johnson. Yes.
    Mr. Tierney. What was the delay?
    Ms. Johnson. Sir, the Senate didn't entertain my 
confirmation and vote on it.
    Mr. Tierney. So no permanent Administrator all that period 
of time.
    Now, you had worked as a Chief of Staff at the same agency 
in the 1990s. Is that correct?
    Ms. Johnson. Yes, I had.
    Mr. Tierney. So was this kind of activity, as far as you 
know, going on in the 1990s?
    Ms. Johnson. No.
    Mr. Tierney. Tell me what the agency looked like in your 
mind in the 1990s when you were there.
    Ms. Johnson. The agency is full of hardworking people 
delivering goods and services to the American people. It was an 
agency that was just emerging from the Clinger-Cohen 
legislative change for its mandate. And in the mid-1990s, it no 
longer was allowed to be a monopoly provider to the government. 
And it became a nonmandatory supplier. So the element of 
competition was introduced into GSA, which I think was a 
tremendous improvement in GSA in that it forced GSA to stand up 
and look at its customers and think about what it was 
delivering. It was a very exciting time at GSA.
    Mr. Tierney. I want to read what you had in your written 
statement here. When you returned to the GSA in February of 
2010, the agency was not the same as what you just described I 
guess. A quarter of the executive positions were empty. 
Strategy was nonexistent. Major customers viewed our 
partnership askance. Labor relations were acrimonious. The 
information technology infrastructure was inadequate. The 
schedules and other contract vehicles were burdensome. The 
Federal Acquisition Institute had atrophied. Government-wide 
policy looked focus. And more expensive leasing portfolios had 
ballooned. So this is what you found different about the agency 
from the first time that you served there.
    Ms. Johnson. Yes.
    Mr. Tierney. And obviously, that all bespeaks, I would 
think, of a lack of leadership, going through a rudderless sort 
of existence. When you were finally sworn in, what did you 
start doing to try to right that ship?
    Ms. Johnson. Worked very hard. The very first thing I 
really did was to try to begin to fill the executive slots. We 
needed leaders in those positions, and we needed them quickly. 
So that was literally my first effort.
    Mr. Tierney. Who in that chain of command would have been 
responsible for knowing that the kind of behavior that we are 
here today about was occurring?
    Ms. Johnson. The chain of command around this conference 
would have--it is a matrix. It would have been in the sense 
that it was in the Public Buildings Service, it was Jeff Neely 
as the Regional Commissioner reporting up to Bob Peck, who was 
the Commissioner of the Public Buildings Service. At the same 
time, it is a regional structure. And the Regional Commissioner 
reports to the Regional Administrator. There was no Regional 
Administrator there. Jeff Neely was dual-hatted. So he was 
essentially----
    Mr. Tierney. He was watching himself.
    Ms. Johnson. Yes. And he then in that Regional 
Administrator role reported in to the senior counselor, who 
reported to me.
    Mr. Tierney. Did you set about trying to replace those 
people and put the right oversight people in charge there?
    Ms. Johnson. We were filling the Regional Administrator 
slots, yes, absolutely.
    Mr. Tierney. It is hard to run an agency when nobody is 
watching anybody else and there is no oversight on that. That 
is what strikes me as incredible here. So when this event 
happened and somebody on your staff reported it to Mr. Miller, 
was that the first time you were aware that this conduct had 
been going on?
    Ms. Johnson. When he gave us the interim communications 
PowerPoint was when I learned of the extent of it. And that 
was--that is when it hit me, yes.
    Mr. Tierney. So nobody had reported to you that this type 
of behavior happened in New Orleans in 2008 and in other 
instances?
    Ms. Johnson. No.
    Mr. Tierney. Apparently for a number of years leading up to 
this.
    Ms. Johnson. No, I did not know about the other 
conferences, frankly.
    Mr. Tierney. Thank you. Yield back.
    Chairman Issa. Thank the gentleman.
    We now go to the gentleman from Oklahoma, somebody who 
understands budgets very, very well, Mr. Lankford.
    Mr. Lankford. Thank you.
    And thank you all for being here, giving a chance to voice 
it. Let me run through a couple things that just strike me. 
During the time of this conference, at that same month 
unemployment in the Nation was 9.6 percent. We were in the 
process--in fact, GSA was in the process of putting out 
stimulus dollars totaling $5.85 billion, trying to help through 
a very dramatic recovery. The President had just recently 
rebuked public companies who did conferences in Las Vegas that 
had also received TARP money at a very similar time that GSA is 
holding a huge conference in Las Vegas of this type. I have 
been interested, as I have gone back through the history, that 
several folks had mentioned this kind of behavior had gone on 
for a while. So I looked at the Oklahoma City conference, which 
is in the heart of my district, and went back just 4 years 
before and noticed that in the Oklahoma City conference, same 
number of people, $323,000 was spent. In the Vegas conference, 
$840,000 was spent. So to say all these previous conferences, 
like Oklahoma City and New Orleans and all this are the same, 
they are not. There was something that was happening that was 
very unique. And that was dialing up with incredible speed on 
this.
    Ms. Johnson, you have an incredible career, and I mean that 
in all sincerity, in both the private sector and the public 
sector. I can't imagine you not having incredible frustration 
at the process of dismissal on the Federal side, of going 
through the process of people you know should be dismissed, but 
instead you have resigned, when you know some of the people 
most culpable in these decisions are still there going through 
a long drawn-out process of appeals. My question for you is 
what do we need to fix in dealing with Federal hiring when this 
kind of stuff comes up that we can work through a process 
judiciously, because there are a lot of great Federal 
employees, but to work through a judicious process where we can 
clear the house of people that give the Federal Government a 
bad name?
    Ms. Johnson. Congressman, I would certainly welcome a 
thoughtful policy discussion about that. I am not a human 
resources specialist. I am not sure what I would suggest. 
Certainly there is due process for employees. I appreciate 
that. I appreciate the fact that there needed to be two 
officials involved so that there isn't preemptory decision-
making. I would yield to the experts in the personnel 
management organizations.
    Mr. Lankford. I understand. But you resigned----
    Ms. Johnson. Yes, I did.
    Mr. Lankford. --though your office was the office that 
actually started this investigation.
    Ms. Johnson. Yes.
    Mr. Lankford. This would not come to light unless your 
office would have started it. But as the leader and at the top, 
you resigned, and people that were directly there making the 
decisions, signing onto the warrants, going through these 
fraudulent contracts, they are still there.
    Ms. Johnson. Yes, I have resigned, and yes, I believe they 
are still there.
    Mr. Lankford. Let me just mention a couple things that are 
jarring on this to me. One is in the GSA process and one of 
them I find very meaningful in this, trying to do a piece of 
charity work with this $75,000 bike team-building experience. 
The frustration is they have a $75,000 team-building experience 
that was designed to give away 24 bikes to needy boys and girls 
from the Boys and Girls Club. And so instead of employees 
putting together this and doing this out of charity, they used 
taxpayer funds to provide a charity event of these 24 bikes, 
and then used taxpayer funds to provide an ice cream party for 
the children when they came and picked them up, and so everyone 
could feel good. But it wasn't their money, and it wasn't even 
their time. They were paid to be on the clock to do that as a 
Federal employee. And the Federal taxpayer paid for the bikes. 
And then everyone else felt good. And that is one of those 
moments that we look at and say, where have we gone that 
suddenly now doing charity work as a Federal employee has to 
come from the hardworking American taxpayer rather than 
actually engaging from it?
    The other side is this contracting issue with the sound 
company and the hotel, not to mention that the charity work 
done with the bikes directly violates GSA policy on disposing 
of Federal property. I mean, it is in direct violation of GSA 
property. Then this sound contract gets preferential treatment 
over another company. And they get free rooms in addition to 
the rooms that they were paid for. The hotel contract was 
really negotiated off line separately so we can have additional 
food because we didn't pay enough for this, or we are going do 
all this extra food for this.
    This is the kind of stuff that makes people in my district 
that try to get a Federal contract furious. And they come to 
our office and say we are trying to get a Federal contract, but 
it looks like some sweetheart deal is done for some other 
company, and no one can validate it. How do we start clearing 
the deck on this so we really do have fair competition, whether 
it be in GSA or anywhere else? How do we root this kind of 
stuff out?
    Ms. Johnson. Well, I believe, first of all, we have a good 
oversight process. And I appreciate that the Inspector General 
is there, and we can go to him and say, would you look into 
this and find this out? Because it was appalling to me. And I 
felt grateful that someone had the capability to do that kind 
of investigation. So that is certainly a piece of it. I think, 
as alluded to by some other questions, I think leaving agencies 
without steady leadership is to leave an agency hanging. And 
although there were able interim Administrators, no one had the 
clout of being confirmed and able to move in and really assume 
the job. So I think there are a number of different things that 
could be addressed.
    Mr. Lankford. I yield back.
    Chairman Issa. I thank the gentleman.
    I might note for the record we did look it up, and SES 
people can make as much as $179,000, which means they are paid 
more than Members of Congress.
    Perhaps we could consider those people unnecessary if you 
are centralizing control, Mr. Robertson.
    Ms. Johnson. And they are paid much more than I am--was.
    Chairman Issa. Noted.
    With that, we go to the gentleman, Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman.
    Ms. Johnson, without getting bogged down into conduct 
reviews versus performance reviews, why did you give that 
$9,000 bonus?
    Ms. Johnson. I gave that $9,000 bonus because I was focused 
on performance, and because the recommendation came from the 
buildings commissioner, who was the direct budgeting and 
supervisor of Mr. Neely.
    Mr. Walsh. Let me ask it another way. If you could take 
that bonus back, if you could go back in time and not approve 
that bonus, would you do that?
    Ms. Johnson. Well, I would certainly like to avoid these 
questions, yes.
    Mr. Walsh. Would you----
    Ms. Johnson. I think----
    Mr. Walsh. Do you wish you had not approved that bonus?
    Ms. Johnson. Everything in retrospect is always hard to 
understand. At the time, I was expecting the Inspector 
General's report. You know it's not a decision----
    Mr. Walsh. I appreciate that. But right now, if you could, 
do you wish you had not approved that bonus?
    Ms. Johnson. I am not sure how I can--I am not sure how I 
can answer that, knowing what I know about all of the rules and 
the----
    Mr. Walsh. I appreciate that. Let me move on.
    My colleagues on both sides have rightfully focused on how 
did this happen? Who knew what? What procedures were in place 
that let this happen? When did it happen? All important 
questions in an investigation. But what eats at me is the why; 
why does something like this happen? And again, many of these 
examples have been pointed out. The $6,000 commemorative coins. 
Did Mr. Neely, Ms. Johnson, think that was his money?
    Ms. Johnson. I have no idea.
    Mr. Walsh. Do you think it is your money?
    Ms. Johnson. I do think it is my money. That is why I was 
so appalled. And that is why I resigned.
    Mr. Walsh. You don't think that is your money.
    Ms. Johnson. I believe the--I am a taxpayer. It is my 
taxpayers' money.
    Mr. Walsh. Taxpayers' money. The $8,000 spent on yearbooks. 
Do you believe Mr. Neely thought that was his money?
    Ms. Johnson. I don't know what he was thinking.
    Mr. Walsh. Do you think it is your money? Whose money is 
that?
    Ms. Johnson. It is the taxpayers' money.
    Mr. Walsh. The $130,000 spent on six scouting missions to 
visit Las Vegas. Do you think Mr. Neely thought that was his 
money?
    Ms. Johnson. I have no idea what Mr. Neely was thinking.
    Mr. Walsh. Do you think it is your money?
    Ms. Johnson. I believe it is the taxpayers' money.
    Mr. Walsh. Mr. Robertson, do you think that $130,000 was 
your money?
    Mr. Robertson. I believe that money belongs to the 
taxpayers.
    Mr. Walsh. Mr. Foley, do you think that was your money?
    Mr. Foley. No, I believe it is the taxpayers' money.
    Mr. Walsh. Food and drink for the conference, $145,000.
    Mr. Robertson, do you think Mr. Neely truly thought that 
was his money?
    Mr. Robertson. I don't know what Mr. Neely was thinking.
    Mr. Walsh. Do you think that was your money?
    Mr. Robertson. That money clearly belongs to the taxpayers.
    Mr. Walsh. Mr. Foley, do you think Mr. Neely thought that 
was his money?
    Mr. Foley. I do not know what he was thinking.
    Mr. Walsh. Do you think that was your money?
    Mr. Foley. No. It clearly belongs to the taxpayers.
    Mr. Walsh. And I don't know you, and I respect your 
service, but why even joke, why even joke about abusing 
taxpayer dollars? Why even do that? I mean, all my colleagues 
have said, rightfully, everybody knows what the American people 
are going through right now.
    Mr. Foley. It was----
    Mr. Walsh. Can't you imagine that for $6,500, the average 
struggling taxpayer out there could find something to do with 
that? For $8,000 for these souvenir yearbooks, do you think the 
average man or woman in any one of our districts today would 
know what to do with $8,000?
    Mr. Foley. Again, I absolutely apologize for my remarks. I 
clearly recognize they were inappropriate.
    Mr. Walsh. But Mr. Foley, what made you feel like you could 
joke about it to begin with? See, what I want to know is this 
culture, the why, why did Mr. Neely feel like he could do what 
he did? If Mr. Neely had to foot the bill for this conference 
would he have felt that he could have abused his own dollars 
like that?
    Mr. Foley. I don't know what Mr. Neely would have felt.
    Mr. Walsh. It is just--and Ms. Johnson, I know you 
appreciate this. It is not your money.
    It is--Mr. Robertson, it is not your money. And this is 
what has the American people so worked up: $8,000 is a lot of 
money; $6,500 goes a very long way for most families today. And 
I would argue that the invisible man there, Mr. Neely, if he 
had thought this was his money, we wouldn't be here today.
    Mr. Chairman, I yield back. Thank you.
    Chairman Issa. I thank the gentleman.
    And I would note for the record that we have not been able 
to get a clarification whether it is 6 or 10. It appears it 
could be 10 round trips with family in some cases, costing over 
$100,000, to find out what Vegas was like.
    With that, we go to the gentleman from another region, the 
gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And I generally applaud yours and the committee's selection 
of witnesses. But you have left out one important witness in 
that hearing, and that is the mind reader. Maybe he could tell 
us what some of these people were thinking when they did that.
    I do have a couple of comments and questions that hopefully 
you all could clear up for me. I am really concerned about a 
pattern that we are seeing, not just in the GSA but in the 
government overall, about a lack of common sense or about it 
not being our money. You should have a higher respect for the 
taxpayers' dollars than you have even for your own dollars. 
They are giving this to us in trust to spend for them.
    But you look at what is happening in the news today. You 
look at this convention. You look at the Secret Service Agents 
and that fiasco that happened. You look at some of the things 
this committee is investigating. A lack of common sense in Fast 
and Furious, the Freddie and Fannie bonuses. And I would like 
to ask the gentleman from the Inspector General's Office, do 
you see this pervasive in your agency or pervasive in the 
government?
    The GSA agents I have dealt with personally doing the 
office we have in the district and helping out with some 
constituents have been great people. But are we developing in 
the GSA or the government in general a culture of lack of 
common sense or indifference about taxpayers' dollars? I mean, 
I Priceline hotels. I don't just use you all's government rate.
    Mr. Miller. Congressman, all IGs are very concerned to 
protect taxpayer dollars and to get the best value for taxpayer 
dollars. I think the question was asked, you know, why did Mr. 
Neely do this? We can't get into his head. But one reason was 
that he could. There was a lack of accountability. He was both 
the Regional Commissioner and Acting Regional Administrator.
    Mr. Farenthold. But wouldn't you agree, regardless of how 
many rules we have, if we have an attitude of let's see how we 
can sneak it in under the rules or just outright ignore the 
rules, the money is going to continue to fly out the door at a 
fast and furious pace?
    Mr. Miller. Unfortunately, people know the rules, and they 
know how to skirt the rules.
    Mr. Farenthold. And that is really disappointing. And I 
want to take a second to point out that if this is happening in 
other government agencies, we need to know about it. This 
committee has a Web site, Oversight.House.gov, and there is big 
orange button there that says whistleblower. We need to stop 
this, and we need to stop the culture of overspending in our 
government. What we have got do is take Rudy Giuliani's 
attitude; let's start with the little things, fix the broken 
glass. You have got to remember, it is not your money; it is 
the taxpayers' money, and you owe them the highest duty with 
respect to protecting that money.
    Let me go back to the former Administrator. And I want to 
commend you for taking responsibility for that and resigning. I 
wish you would have had a chance to clean up a little bit more 
before you were able to go. And I do think this is something 
that this committee and the Congress as a whole needs to look 
at is how government employees can linger on and on and on, 
basically on paid vacation when they are on administrative 
leave. We are getting no value for it. And the money is just 
going flat out the door.
    Do you have any comments on that?
    Ms. Johnson. Not really, Congressman.
    You have heard my thoughts in my statements. I think that 
we certainly were initiating disciplinary action, and we needed 
to adhere to due process. And that is what we were working 
with. But we were working diligently with the process we had.
    Mr. Farenthold. And I understand everybody is entitled to 
due process. And one of the reasons people choose to work for 
the government is to get away from employment at will. You 
know, you have some rights with respect to the government. But 
I am thinking we need to look at, especially in cases of clear 
misconduct, that we need to be able to find a way to expedite 
this process. And I do--and pardon me for asking this question, 
but this is a game of politics, and some people have asked me, 
your resignation was timed with the day that this report came 
out. Was that coordinated with the White House or the 
President's campaign? Did you talk to anybody over there about 
that?
    Ms. Johnson. It was certainly not coordinated with the 
campaign. I did inform the White House. We were in 
communication with the White House so that they would be aware 
of it. I mean, I was resigning from my White House appointment. 
And it was----
    Mr. Farenthold. Did the White House ask you to resign, or 
was that your decision?
    Ms. Johnson. No, they did not. No, they did not. I chose to 
resign.
    Mr. Farenthold. And again, I commend you on having done the 
honorable thing there, and thank you for your public service. 
And I am sorry you have to leave on this sour note. Thank you.
    Chairman Issa. Would the gentleman yield?
    Mr. Farenthold. Certainly.
    Chairman Issa. Just a quick follow up. You knew this report 
was coming. You had 11 months between a scathing preliminary 
and the final. You resigned on the day it came out. When did 
you decide that you would resign? When did you first know that 
this report would look the way it did?
    Ms. Johnson. I knew when I received the draft report that 
it would look that way because I had no quarrel with the IG.
    Chairman Issa. So you had 11 months' warning?
    Ms. Johnson. No, it was 45 days. From the time that they 
gave us the draft----
    Chairman Issa. So about 60 days, okay.
    Ms. Johnson. Yeah. I mean, it was someplace in there. And I 
knew that it--so I knew what was in the report, and I did not 
contest it. I had no reason to. I accepted all the 
recommendations.
    Part of what we worked through, because I took the role of 
running our response myself, is understanding what our 
personnel rules were, what our legal positions were, and so on. 
And as that unfolded, it became clearer and clearer to me that 
we needed to do something very--I don't want to use the word 
``dramatic,'' but we needed to make a very strong statement 
about how this was so appalling. So I decided to resign. I 
finally came to the decision in my own head about 3 or 4 days 
before I resigned, but I had thought about it for the entire 6 
weeks.
    Chairman Issa. Thank you.
    The gentleman from New Hampshire, Mr. Guinta, is recognized 
for 5 minutes.
    Mr. Guinta. Thank you, Mr. Chairman.
    I want to continue on this line of questioning. You said 
over that several-day period you had thought about resigning?
    Ms. Johnson. Over the whole--well, the thought entered my 
head right away, you know, was this something I needed to 
resign over. And I worked my way through what the discipline 
was for the various people involved, what other actions we 
could take. But I came to the--you know, I was ready to sit 
down and write my resignation about 3 days before.
    Mr. Guinta. Did you consult with your Chief of Staff on 
that?
    Ms. Johnson. Yes. I mean, he understood my thinking. Yes.
    Mr. Guinta. Okay.
    What was your position, Mr. Robertson, in 2007?
    Mr. Robertson. My position in 2007?
    Mr. Guinta. Yes.
    Mr. Robertson. It depends on what time in 2007. I held two 
jobs in the year 2007.
    Mr. Guinta. Which were the two?
    Mr. Robertson. In the U.S. Senate, in this body of the U.S. 
Congress, I was a legislative coordinator in the Senate. And 
then, following that, I joined the Presidential campaign for 
then-Senator Obama.
    Mr. Guinta. You were a legislative coordinator for a 
Senator?
    Mr. Robertson. Yes.
    Mr. Guinta. Which Senator?
    Mr. Robertson. It was Senator Obama.
    Mr. Guinta. Okay. So you went from working for Senator 
Obama as an LC to then working on the Presidential campaign to 
then working on transition to then going to GSA to then being 
Chief of Staff to GSA. Is that fair?
    Mr. Robertson. After about 18 months inside GSA, yes.
    Mr. Guinta. Okay, in an 18-month--you went from an LC to a 
Chief of Staff. That is great. Congratulations.
    At what point did you talk with Ms. Johnson about her 
resignation? She just said that she had talked with you about 
resigning. When did you speak with her about resigning?
    Mr. Robertson. She told me that she was thinking about it 
at some point during the development of our response. I don't 
recall the date.
    Mr. Guinta. Can you give me a month, a month of the first 
time you talked about it with her?
    Mr. Robertson. It was sometime between February and April 
when the final report came out. I believe it was in March.
    Mr. Guinta. Who did you talk to at the White House about 
her resignation during that period of time?
    Mr. Robertson. Nobody.
    Mr. Guinta. You did not convey in writing or verbally to 
anyone at the White House that there was a consideration of a 
resignation?
    Mr. Robertson. No. To the best of my recollection, I did 
not.
    Mr. Guinta. To the best of your recollection?
    Mr. Robertson. Yeah.
    Mr. Guinta. So you didn't or to the best of your 
recollection?
    Mr. Robertson. To the best of my recollection, I did not 
communicate anything about the Administrator's resignation to 
the White House.
    Mr. Guinta. So it is possible you did communicate something 
to the White House?
    Mr. Robertson. To the best of my recollection, I did not 
communicate anything about the Administrator's resignation to 
the White House.
    Mr. Guinta. Did anyone from the White House talk to you in 
writing or verbally about the thought or the idea of Ms. 
Johnson resigning?
    Mr. Robertson. To the best of my recollection, no.
    Mr. Guinta. Mr. Miller, you said earlier in your testimony 
that it was, I think, abnormal--I don't recall the words you 
used, but it was not the norm.
    Mr. Miller. Unusual.
    Mr. Guinta. Unusual, okay, thank you. So why did you 
provide this preliminarily information?
    Mr. Miller. I provided it to the Administrator May 3rd, 
2011, so that GSA could take steps to prevent future waste.
    Mr. Guinta. Okay.
    And I am reading from Ms. Johnson's written testimony that 
was submitted today. ``We finally received the report''--excuse 
me, let me back up. You had written, ``Ms. Brita shared these 
findings with four of us in May 2011,'' and you named the four 
people who were in that meeting. And according to your 
testimony, you were part of that meeting. Is that accurate?
    Ms. Johnson. Yes.
    Mr. Guinta. In your line of questioning with the chairman 
at the beginning of this hearing, you had stated, quote, ``I 
was aware of a PowerPoint slide deck, but I did not see it.'' 
Yet, in your written testimony--so maybe you want to clarify--
you said, ``Ms. Brita shared these findings with the four of us 
in May 2011.''
    The sentence prior to that says, ``I believe the Inspector 
General subsequently briefed her with a PowerPoint deck,'' yet 
you are saying you never saw the PowerPoint deck. So I want to 
be clear if you saw that PowerPoint deck in May during that 
briefing.
    Ms. Johnson. I have to apologize. It must be because I am 
59 years old, but I have no memory of seeing it.
    Mr. Guinta. Okay.
    Ms. Johnson. This is based on my memories. If I could see 
my schedule and jog them and think about what meeting I was in 
with the Inspector General, I might be able to recall 
something. But right now I cannot recall that.
    Mr. Guinta. All right. The last point I want to get to----
    Ms. Johnson. But we did have a discussion about it.
    Mr. Guinta. Okay. Thank you.
    The last point I want to get to is the raise of Mr. Neely. 
I have this email dated November 5th, 2011, which is certainly 
after, significantly after, you and others were briefed about 
this incident, this circumstance. And your email said, ``I 
spoke to Bob yesterday afternoon.'' I believe that is Bob--I 
would assume you are referring to Bob Peck. ``He is 
recommending a 4 based on the extent to which Jeff is achieving 
more results in leasing than anyone else and some other things 
which he didn't delineate. I could support that if the Steve 
Jobs message is dead-clear. Next year people have to have 
crackling good collaboration/people skills to get above a 3. I 
have made that adjustment in a couple of other cases this year. 
It has to be in the message like a fire siren. Yes on the 
bonus. He was also Acting RA forever and a day.''
    That is the entire body of the email sent by you to Susan 
Brita, with a CC to Steve Leeds and Bob Peck, regarding Mr. 
Neely's $9,000--I find it a little shocking that that would 
really be the only thing we have, the only correspondence we 
have, the fact that--it looks like you cite two things: He has 
been an RA forever and a day, and, secondly, that he is 
achieving more results in leasing than anyone else.
    Is there any kind of guideline or specific documentation 
that someone has to go through to determine if there are 
measurable outcomes and objectives that someone at this level 
is meeting the criteria in order to receive a bonus?
    Ms. Johnson. So the process involves a performance review 
board, and I believe they had a fair amount of documentation. 
The Deputy Administrator was briefing me. She was briefing me 
fairly regularly, just verbally. We sit right next to each 
other. So she was informing me of their thinking and where they 
were wrestling with a recommendation and where they were pretty 
straightforward. There was a lot of dialogue.
    Mr. Guinta. Do you still agree that he should have received 
this $9,000 bonus?
    Ms. Johnson. Well, as the other Congressman was asking what 
would I do in hindsight, I still am not sure how to think about 
the two different expectations on me around assessing 
performance and conduct and how much I would have interfered 
with a conduct review that I considered very serious if I had 
moved in a different direction with a performance process and 
made that less independent.
    Mr. Guinta. Thank you. I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Miller, have you made a referral to the United States 
Attorney's Office?
    Mr. Miller. To the Department of Justice, yes.
    Mr. Gowdy. I hope it is a different group than the one that 
handled Fast and Furious. But you have made a referral?
    Mr. Miller. Indeed, yes.
    Mr. Gowdy. When did you make it? With a recommendation?
    Mr. Miller. Yes.
    Mr. Gowdy. Did you make recommendations for criminal 
charges or just FYI, forwarded it?
    Mr. Miller. No, we recommended criminal charges.
    Mr. Gowdy. All right.
    Well, Mr. Chairman, the need for a hearing like this 
epitomizes our fellow citizens' frustration with government. 
They are absolutely convinced that we spend their money 
differently from the way that we would spend our own, and they 
are exactly correct.
    The rest of America cannot comprehend a $44 breakfast. They 
are pouring generic brand cereal while you are eating a $44 
breakfast. The rest of America would never conceive of a $7 
Monte Cristo mini-sandwich, and neither would you if you were 
spending your own money. You don't go out of your pocket and 
buy commemorative coins. I don't know anyone who does that. But 
we don't hesitate to spend taxpayer money on a trinket like 
that.
    Giving bicycles to indigent children is a wonderful idea. I 
hate that you robbed yourself of the satisfaction of knowing 
what it feels like to do it yourself instead of spending 
someone else's money to do it.
    The ostensible purpose of this hearing was to exchange 
ideas. You know, Alexander Graham Bell has this marvelous 
invention called the telephone, or, better yet, 
videoconferencing. The notion that you have to spend $800,000 
to exchange ideas is laughable and perhaps criminal.
    And the part that galls me the most is the hypocrisy of GSA 
not even following its own damn rules. You are so quick to make 
everyone else follow the rules, and you can't follow your own 
rules. You have an event planner on staff. That will come as 
quite a surprise to most taxpayers. What will come as even more 
of a surprise is the fact that you didn't even use them. You 
paid somebody else to plan the event despite the fact that you 
have event planners at taxpayer salary.
    And the scouting trips. You know, Mr. Chairman, the tribes 
of Israel sent 12 scouts into the promised land before they 
decided to invade, and GSA has to send 15 to Las Vegas to check 
out a hotel.
    Do you not see the outrage in that, Mr. Robertson? Do you 
see it?
    Mr. Robertson. Absolutely. This conference was outrageous.
    Mr. Gowdy. Well, I am not going to be as self-
congratulatory as some other people are. I think the fact that 
we are having a hearing is a loss. Most people don't need a 
hearing to know that you don't spend other people's money the 
way that money was spent at this conference. We don't need a 
list of recommendations from the Inspector General. We don't 
need to be reminded that you can't negotiate a discount on a 
purse because the U.S. Government decided to contract with a 
hotel. That is criminal.
    And a mind reader? My guess is they will not need a mind 
reader to find out the American public has lost confidence in 
the institutions of government and their response.
    I want indictments, Mr. Inspector General. That is a great 
way to get people's attention, an indictment. Not a memo, not 
corrective measure, an indictment.
    I went through your report and I wrote 25 times, what is 
the penalty? What is the penalty for doing what you found that 
they did? What is the penalty for negotiating a discount on a 
purse for your personal use because you work for the government 
and you steered work? What is the penalty for tipping off a 
competitor of another bid? That sounds remarkably criminal to 
me, Mr. Inspector General.
    You know, Mr. Chairman, while this conference was being 
planned and executed, I was working in a small DA's office in 
South Carolina. We had budget cuts. We had to furlough 
secretaries that were making $20,000 a year. We started a fund 
out of our own pocket to pay for kids' birthday presents. We 
never thought about spending taxpayer money on it.
    Working for the government is a sacred trust which you have 
blown. So instead of a team-building exercise, you might want 
to investigate a trust-building exercise, because you have lost 
it.
    Chairman Issa. That concludes our first round. The 
gentleman's outrage I think is a bipartisan reflection of the 
entire first round. I will be brief in the second round. There 
are a few things that weren't covered. So I recognize myself.
    Mr. Miller, Exhibit 2, a letter we have from Susan Brita, 
that, although she was the original, if you will, provocateur 
that caused your investigation to begin, she writes--or, 
actually, to Ruth Cox, there is a question, wanted to know why 
the report had to be made public since she was told otherwise 
by Bob Peck.
    Are you familiar with this exhibit?
    Mr. Miller. Yes, I am, Mr. Chairman.
    Chairman Issa. And I appreciate your completeness in 
supplying us this.
    Chairman Issa. How do you explain anybody, political 
appointee or not, considering that any part of this would be 
retained as private, particularly after such a long time of us 
not knowing about it?
    Mr. Miller. I can't explain that, Mr. Chairman. We always 
intended for this to be public. It is of such a magnitude and 
such an outrage that it had to be made public for transparency.
    Chairman Issa. Well, I would like to follow up on that, 
because the ranking member and I regularly receive briefings 
from IGs. IGs, all 12,000 men and women and $2 billion budget, 
exist to a great extent for a liaison with this branch. I am a 
little--I am more than a little concerned. You have done a 
wonderful job. It is a comprehensive report, and it is going to 
change a lot of things throughout government. But if you had to 
do it again, when would you have briefed this committee, your 
primary committee for oversight?
    Mr. Miller. Well, Mr. Chairman, we wanted to nail down all 
the facts every which way before we put the report to print. I 
am receiving your message that we should come to you sooner, 
much sooner than we have a draft report.
    The process was that we wanted to get something together 
quickly to warn the Administrator and others so that they can 
stop further waste. We did that quickly and did it in May 2011. 
It took a long time to nail down the facts every possible way, 
and we got a final report to her in February. She requested an 
extension of an extra 30 days.
    You know, I--you know, we--I am happy to talk with you 
about when we should bring these reports to you. These are 
sensitive reports. They do contain what we view as criminal 
conduct.
    Chairman Issa. Well, and I appreciate the criminal conduct. 
And, obviously, one of the concerns we have is, we need to know 
from a reform standpoint, from an oversight standpoint earlier, 
not later.
    I will say this on the record to you but, in fact, to all 
the IGs, the 70-plus, and all the people that work for them. It 
is my intention to work with the ranking member to produce a 
guidance letter from this committee that would spell out an 
expectation. If that expectation, which is ordinary--we are 
going to try to be consistent with what often occurs--if that 
is not something that we see on a go-forward basis, then I will 
also draft legislation with the ranking member to try to codify 
in law.
    It has not been a problem in the past. I do find it 
exceptional. And, by the way, good work. I am not making any 
disparaging remark on the quality of your work. But it is 
highly unusual for us not to receive a heads-up much, much 
sooner, particularly when it would have allowed us--for 
example, the 23 letters I sent to other agencies--to begin 
looking at perhaps the effects of so much money being infused 
into the government.
    As you know, Earl Devaney and I work closely. We were 
monitoring through the stimulus funding a plethora of possible 
areas in which so much money could, in fact, be misspent. And 
former IG Devaney, Chairman Devaney, and this committee worked 
constantly on this, along with the Vice President. So while we 
were doing all of that, this would have been helpful. That is 
the only criticism.
    I am going to close here with Mr. Robertson. You were 
previously liaison to, essentially, the White House. And I know 
the word ``administration'' versus ``White House'' versus 
``President'' gets used loosely. So let's just take the largest 
question.
    In your role as, in fact, the communicator, not 
representing the Administrator, but representing White House 
liaison, that role in which your job was to communicate to have 
no surprises, nothing unknown to the people of the White House, 
both political and nonpolitical, wouldn't you ordinarily have 
reported something like this in that role?
    Mr. Robertson. The role of the White House liaison is to 
on-board appointees into different offices in the executive 
branch agencies and departments.
    Chairman Issa. No, but here is the whole point. When you 
worked for Senator Obama, I am sure your Chief of Staff told 
you, ``No surprises for the Senator,'' right?
    Mr. Robertson. I don't remember having that conversation in 
the Senate.
    Chairman Issa. So you would have kept something like this 
that could embarrass the President, you would have kept it a 
secret when he was your boss as a Senator? Or would you have 
told the Chief of Staff that?
    Mr. Robertson. I don't know how to answer a hypothetical 
question.
    Chairman Issa. Well, this is not all that hypothetical. All 
of us on the dais, in fact, you know, we have the same 
situation that Senator Obama has. So this is not something that 
is unusual. When you work for a Member of Congress, it is 
almost a given that the one thing you don't do is let somebody 
be surprised with a scandal that occurs under their watch.
    Now, I am going to ask you because you still have your job, 
you are still a political appointee at the highest level--and, 
as Ms. Johnson says, you are probably making less than the 
$179,000 that Mr. Neely is still making today. So I ask you 
again, during the time that you were White House liaison, 
wouldn't there be an expectation that you would inform people 
at the White House?
    Mr. Robertson. During my time as White House liaison, I 
executed the duties assigned to me by my boss, the Acting 
Administrator, at the time.
    Chairman Issa. So the word ``liaison'' doesn't mean 
anything?
    Mr. Robertson. It means that the primary duty of the White 
House liaison is to on-board appointees into the executive 
branch agencies and departments.
    Chairman Issa. So you are telling me that the Obama 
administration doesn't use White House liaisons to communicate 
back and forth to keep the White House staff informed about 
things that may--a heads-up that may be significant?
    Mr. Robertson. My role as White House liaison was to on-
board the appointees into the executive branch agencies, my 
branch agency.
    Chairman Issa. Okay. When did you first become aware of 
this scandal?
    Mr. Robertson. I had secondhand knowledge in May following 
the briefing that the IG gave to the Administrator. It was 
mentioned to me that this was an ongoing investigation that 
existed.
    Chairman Issa. Since May of last year, more than a year, or 
approximately a year, have you talked to anyone in the 
administration outside of GSA that may have communicated it to 
anyone inside the White House or related areas?
    Mr. Robertson. Do you mind repeating the question? I am 
not----
    Chairman Issa. It is a fairly broad question. Did you--once 
you knew of this terrible scandal, this waste, did you talk to 
any of your friends, associates, or other people employed 
either by the Office of the President or related areas within 
the administration? Did you communicate this to any of your, 
sort of, friends and family?
    Mr. Robertson. I communicated to the appropriate people.
    Chairman Issa. Who are they?
    Mr. Robertson. Who are the appropriate people? In my 
ongoing work as Chief of Staff to the Administrator inside GSA, 
I occasionally and sometimes on a regular basis communicate to 
the White House about the policy priorities inside GSA as well 
as any issues within the agency that might impact 
administration priorities.
    Chairman Issa. To the best of your recollection, when did 
you first report this scandal to those people?
    Mr. Robertson. To the best my recollection, the first 
mention I made of the ongoing investigation by Brian, which I 
was not assigned--it is important to note that the 
Administrator directly assigned the Deputy Administrator and 
the senior counselor to both the relationship with the IG as 
well as the specific investigation.
    And after becoming aware of the existence of the 
investigation, I mentioned it to a White House staffer that I 
worked with on a regular basis, among, you know, other things 
that I communicated to them about what was going on inside GSA.
    Chairman Issa. That was a pretty good answer, but the word 
``when'' was in my question.
    Mr. Robertson. I apologize, Mr. Chairman. That was sometime 
shortly after the May 2011 time frame when I became aware that 
the IG had briefed Administrator Johnson.
    Chairman Issa. Okay. So you hear about it in May; you 
report it promptly to a staff person within the White House.
    Mr. Robertson. I would say it was sometime after May, in 
the next several weeks that----
    Chairman Issa. Within a few weeks.
    Mr. Robertson. Yes.
    Chairman Issa. Who was that staff person?
    Mr. Robertson. It was a member of the White House Counsel's 
Office that I work with on a regular basis as far as GSA issues 
go.
    Chairman Issa. I said ``who.''
    Mr. Robertson. It was a lawyer in the White House Counsel's 
Office.
    Chairman Issa. What is the name?
    Mr. Robertson. Her name was Kim Harris.
    Chairman Issa. Kim Harris?
    Mr. Robertson. Yes, sir.
    Chairman Issa. Okay. Thank you very much.
    I don't want to take this panel longer because we do have 
another panel. I appreciate the ranking member's indulgence of 
longer than would ordinarily be prudent. And I recognize the 
ranking member.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Johnson, you know, I am sitting here, and I have been 
just listening and watching, and I was trying to figure out 
some issues. First of all, I know that you are an honorable 
woman. I know that. And I know that you have a reputation for 
excellence.
    And I just want to go back to when you resigned. Tell us 
why you resigned.
    You know, and let me say where I am going. This is not a 
trick question. You know, a lot of times when something 
happens, and although a person at the top does not necessarily 
feel that it was their fault, they know that they were in 
charge. Sometimes you will hear a President say, ``It was under 
my watch, I take full responsibility,'' of whatever. On the 
other hand, I guess some of them may feel that they actually 
could have done something different, in other words, to avoid 
certain things from happening, or that they did something to 
cause these things to happen.
    And I am just wondering, why did you resign? Do you follow 
my question?
    Ms. Johnson. Congressman--yes. I resigned because I wanted 
to step aside so that GSA could have some new leadership going 
forward. Frankly, the nature of that conference, the 
coarseness, the videotapes, the kind of impact that it was 
having deeply disturbed me. And I wanted to, as much as I 
could, reassure the American people that somebody was taking it 
quite seriously, and through my resignation, could send the 
message that this is unacceptable, it is appalling, and it is 
not the norm.
    Mr. Cummings. As I listened to the way you came in and the 
delay in your confirmation and when you came in and what you 
came into, you know, and then I watch you, and you said 
something that you probably don't even realize you said. As a 
matter of fact, you said it twice, and not necessarily in 
response to a question; you just volunteered this. I think it 
may have been the chairman that was asking you. But a comment 
was made about the salaries of certain employees, and you said, 
``Yeah, they make more than the Administrator.'' You said it 
twice.
    Ms. Johnson. Oh, I did?
    Mr. Cummings. Yes, you did. I saw you. And you seemed like 
you were very, kind of, upset about that.
    And let me tell you where I am going with this. It seems 
like there are some things going on at GSA--and God knows I 
hope they are not going on in these other agencies--that are 
out of control. In other words, the Administrator comes in and 
there are some things that have been going on. And, you know, I 
look at what have we read about what Mr. Neely has been accused 
of doing, and I don't necessarily want to get into all that. 
But I am just wondering, are there things that you felt you had 
no control over?
    And the reason why this is so significant is because I 
believe the chairman is concerned, as I am, about getting to 
the reform that is necessary to get to, but it seems as if--it 
is almost like the Administrator is here, and there is 
something happening down there, and it is all--I mean, when I 
read the facts of what went on here--you know, a fund that, you 
know, you can almost pull out a million dollars to hold a 
conference for. People can talk about this money as if it is 
their money. The chairman made a good point of that, and 
others. You know, and they can use it for whatever they want.
    I just--I mean, are we--has government become--I mean, do 
we need a different--some kind of different kinds of controls 
here?
    And you might want to chime in here, Mr. Miller, too. 
Because, I mean, if we are going to get to the bottom of this--
I mean, we can go through these hearings and accuse one 
administration of doing it and another administration of doing 
it and all that kind of stuff, but if we don't get to exactly 
controlling what is going on there, we will never solve this 
problem. And so then 10 years from now there will be a new set 
of people sitting up here, and they won't be talking about a 
$900,000 event, they will be talking about a $2 million event.
    So I am just--I mean, help us, help us. I mean, you have 
written this wonderful report, Mr. Miller.
    And, Ms. Johnson, am I reading you right, that you--and you 
seem like you--I have watched your expression. It is like, you 
know, really--and this is what it seems like you are saying. 
You don't have to tell me, but it seems like you are saying, 
this really pisses me off, not that you have to be here, but 
that you have these people who did these stupid things, did 
these greedy things, and I am just pissed, but I was not in a 
position to control it.
    And I am not trying to excuse you; I am just trying to get 
to the bottom of this.
    Ms. Johnson. I appreciate that. I appreciate that, 
Congressman.
    And I think that--I alluded to what I do think is one of 
the issues that I would certainly welcome attention to, and 
that is to be sure that there is leadership in place in these 
organizations and that they aren't left in interim status too 
long. I think that is very hard. It is a very large, 
complicated organization. It takes time for a person even 
coming in to learn the organization. I was lucky, I already 
knew a fair amount about it. But I think that the leadership 
aspect is a pretty important part of this story.
    Secondly, I think that with any large organization you do 
need good management oversight. I had acted as an executive 
would, and I tasked various people with oversight, and there 
was a clear breakdown in the organization around that. Where I 
trusted, I needed to confront the fact that I had trusted and 
it yielded this. And I resigned as a result.
    Mr. Cummings. Mr. Miller, did you have a comment on it?
    Mr. Miller. Well, I have discussed some of these issues 
with Acting Administrator Tangherlini, and I know he is going 
to address you in a few minutes.
    I applaud him in taking stronger action to strengthen 
central office control over budgets of the regions. One reason 
they could spend this money was that their budgets weren't 
being--they didn't have accountability for their budgets. And 
so they could move money from the operations fund into a 
conference and use purchase cards and that sort of thing. And I 
believe Mr. Tangherlini will tell you that the CFO now will be 
able to see those transactions.
    There was a--I guess the regions had a lot of power and 
autonomy. And I know that Mr. Tangherlini is taking steps to 
have the Deputy Administrator take more active control and 
management of the regions.
    But I don't want to steal his thunder, so I will let----
    Mr. Cummings. No, you don't have to steal his thunder, but 
let me just say this. I agree with the chairman that--I know 
there may be all kinds of reasons for not giving us some kind 
of heads-up. But, you know, sometimes--who was the fellow in 
charge of making sure he oversaw the money? You mentioned his 
name.
    Chairman Issa. Earl Devaney.
    Mr. Cummings. Devaney. Earl Devaney said something that I 
will never forget. You know, he said he tried to operate in a 
way where the rules didn't get violated. In other words, he 
tried to be in front of the train instead of, you know, waiting 
for things to happen.
    And so I just kind of--it's just helpful for us, I mean, 
that--I mean, we would love to have had all the information on 
this one so that we could have possibly done some things, I 
mean, brought some people in and just actually sat around the 
table and say, look, how do we make sure this doesn't happen, 
instead of letting it happen and then going--and we probably 
could have saved some people--first of all, could have saved 
some money, but we also may have been able to save some 
embarrassment.
    The last thing I want to say is this, Mr. Chairman, as I 
close, and this will only take a second. You know, a lot of 
times, groups--and I am saying this to our GSA employees and to 
other employees that may be watching this. A lot of times, 
groups are judged by their weakest link. And it is so sad 
because then people look at what a few people do in that group 
and they judge the whole group.
    And I just want to say that, you know, we have a lot of 
great Federal employees, and you know it, that are doing a hell 
of a job. And I just don't want them to be tarnished by this. I 
just want the public to understand that there are people, like 
I said in my opening, that, you know, they collect money for 
the coffee so that they are spending their own coffee money, 
you know? And they do all those little things coming out of 
their own pocket. Some of them--many of them, of course, as you 
know, have taken--you know, they can't get a pay raise for 2 
years and whatever and gone on furloughs, all kinds of stuff. 
And so, anyway, I just don't want the public to judge our 
Federal employees by these weak links.
    And I want to thank you very much. Thank you.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    As we close this panel, I would like to let Mr. Robertson 
and Mr. Miller know that we will likely be back in this setting 
more times as we get through the reform part of this.
    Ms. Johnson, we are unlikely to ask you back in the same 
setting. Your experience at Computer Sciences Corporation, your 
experience here--we may ask if you would voluntarily help us as 
we begin to sort out some of the frustrations you saw between 
political appointees, who in fact you might have a hard time 
recruiting the kinds of people that need to oversee SES and 
other very senior individuals in the bureaucracy, and of course 
some of your frustrations that may exist as to what it takes to 
eliminate a member of civil service even after egregious 
behavior.
    Ms. Johnson. I would be happy to be of any support I can 
be.
    Chairman Issa. And we will make sure it is not at a cost of 
needing a counsel here again.
    Ms. Johnson. Thank you.
    Chairman Issa. And, with that, we will take a short recess 
before the second panel.
    [Recess.]
    Chairman Issa. The committee will now come to order.
    Our second panel is the Acting Administrator of the General 
Services Administration, Mr. Daniel M. Tangherlini.
    Mr. Tangherlini was kind enough to call me almost 
immediately after his appointment.
    And we look forward to your opening statement and, in light 
of the first panel and your listening to that, your comments on 
changes you anticipate. And, with that, the gentleman is 
recognized for 5 minutes.
    Mr. Tangherlini. Good afternoon, Chairman Issa----
    Chairman Issa. I apologize. I have to stick with the 
script. Pursuant to the rules, all witnesses will be sworn. 
Would you please rise?
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth?
    Mr. Tangherlini. I do.
    Chairman Issa. Let the record reflect the witness answered 
in the affirmative.
    The gentleman is recognized.

          STATEMENT OF THE HON. DANIEL M. TANGHERLINI

    Mr. Tangherlini. Thank you. And good afternoon, Chairman 
Issa, Ranking Member Cummings, and members of the committee. My 
name is Dan Tangherlini, and I am the Acting Administrator of 
the U.S. General Services Administration. I appreciate the 
opportunity to come before the committee today.
    First and foremost, I want to state that the waste and 
abuse outlined in the Inspector General's report is an outrage 
and completely antithetical to the goals of the administration. 
The report details violations of travel rules, acquisition 
rules, and good conduct. Just as importantly, those responsible 
violated rules of common sense, the spirit of public service, 
and the trust that the American taxpayers have placed in us.
    I speak for the overwhelming majority of GSA staff when I 
say that we are as shocked, appalled, and deeply disappointed 
by these indefensible actions as you are. We have taken strong 
action against those officials who are responsible and will 
continue to do so where appropriate.
    I intend to uphold the highest ethical standards at this 
agency, including referring any criminal activity to 
appropriate law enforcement officials and taking any action 
that is necessary and appropriate. If we find irregularities, I 
will immediately engage GSA's Inspector General. As indicated 
in the joint letter that Inspector General Brian Miller and I 
sent to all GSA staff, we expect an employee who sees waste, 
fraud, or abuse to report it.
    We want to build a partnership with the IG, while 
respecting their independence, that will ensure that nothing 
like this ever happens again. There will be no tolerance for 
employees who violate or in any way disregard these rules. I 
believe this is critical, not only because we owe it to the 
American taxpayers, but also because we owe it to the many GSA 
employees who work hard, follow the rules, and deserve to be 
proud of the agency for which they work.
    We have also taken steps to improve internal controls and 
oversight. Already I have cancelled all future Western Regions 
Conferences. I have also cancelled 35 previously planned 
conferences, saving nearly a million dollars in taxpayer 
expenses. I have suspended the Hats Off stores and have already 
demanded reimbursement from Mr. Peck, Mr. Shepard, and Mr. 
Neely for private in-room parties. I have cancelled most travel 
through the end of the fiscal year agency-wide. And I am 
centralizing budget authority and have already centralized 
procurement oversight for regional offices to make them more 
directly accountable.
    I look forward to working in partnership with this 
committee to ensure that there is full accountability for these 
activities so that we can begin to restore the trust of the 
American people. I hope that in so doing GSA can refocus on its 
core mission: saving taxpayers' money by efficiently procuring 
supplies, services, and real estate and effectively disposing 
of unneeded government property.
    We believe that there has rarely been a time of greater 
need for these services and the savings they bring to the 
government and the taxpayer. There is a powerful value 
proposition to a single agency dedicated to this work, 
especially in these austere fiscal times. We need to ensure we 
get back to basics and conduct this work better than ever.
    At GSA, our commitment is to our public service, our duty, 
and our Nation and not to conferences, awards, or parties. The 
unacceptable, inappropriate, and possibly illegal activities at 
the Western Regions Conference stand in direct contradiction to 
the expressed goals of this agency and the administration. And 
I am committed to ensuring that we take whatever steps are 
necessary to hold responsible parties accountable and to make 
sure that this never happens again. We need to focus this 
agency on the basics, streamlining the administrative work of 
the Federal Government to save taxpayers' money.
    I look forward to working with the committee moving 
forward, and I welcome the opportunity to answer any questions 
at this time.
    Chairman Issa. Thank you.
    Chairman Issa. I will recognize myself, and I will start 
with one question.
    Do you know if the administration plans on putting you up 
promptly to the Senate for confirmation?
    Mr. Tangherlini. I have not talked to anyone about plans 
beyond my time coming over as Acting Administrator.
    Chairman Issa. Well, I appreciate that. I want to make sure 
the record is clear that the earlier panel made it very clear 
that a series of Acting Administrators was part of the lack of 
continuity of control that in no small part led to, if you 
will, Ms. Johnson receiving an agency that was already, to a 
certain extent, in trouble. So hopefully at OMB and OPM and at 
the White House that is all being heard, as we speak.
    I appreciate the fact that for the record you embraced a 
number of recommendations. But would you have exception to any 
of the recommendations from the Inspector General, realizing 
Ms. Johnson had already embraced all of the recommendations for 
change?
    Mr. Tangherlini. No. In fact, the Inspector General and I 
met on the first day to talk about the report and to talk about 
building a strong rapport going forward so that we wouldn't 
have any such situations develop like this again.
    Chairman Issa. The Inspector General made us aware in his 
answers to our questions that there were ongoing 
investigations, including ones that fall much more in the 
nature of corruption, meaning kickbacks, perhaps bribes, and 
the like.
    Would you commit to us today to ensure that both the 
chairman and ranking member be informed in sufficient 
specificity to understand the gravity of events, if not 
necessarily all the details of possible criminal indictments?
    Mr. Tangherlini. To the extent that I can do that in 
working with the Inspector General, I would be happy to work 
with the committee on those issues.
    Chairman Issa. We appreciate that. No small matter. My ego 
can take not knowing about something. What I can't do is deny 
the ranking member and myself the possibility of looking for 
fundamental changes in yours and other agencies in a prompt 
period of time, we think in 2-year increments or less, and 
would like to make sure that we don't have 2 years go by 
without that.
    You were previously Senate-confirmed, so the expectation of 
this committee is that, if you are promptly put up, you would 
promptly be confirmed again. So hopefully that message is 
delivered.
    You have listened to the testimony of the previous panel, 
including the frustrations of your predecessor, for more than 2 
hours. Do you feel that you would be able to resolve the issues 
that your predecessor was unable to resolve? And I would 
particularly question, do you have confidence in the team you 
now have in place, obviously sans the two that were dismissed?
    Mr. Tangherlini. Well, I intend to conduct a top-to-bottom 
review of the organization. As a new person coming in, 
particularly in these circumstances, I have to have confidence 
in the people I have, but I also have to have that confidence 
demonstrated. I have to have a sense of how we have structured 
the organization, how we have put our resources into play, and 
make sure that that is in fact the way we think we should go 
forward. Clearly, there were serious gaps, as evidenced by what 
took place here.
    Chairman Issa. Now, as you know, you have a fairly large 
amount of Schedule C political appointees that work for you, 
just as you are a political appointee. When you were appointed 
Acting, were you given the full ability to clean house, to 
determine political appointees you would keep and those that 
you would ask to be replaced?
    Mr. Tangherlini. I believe when I was appointed Acting I 
was given full latitude to make managerial decisions over the 
General Services Administration.
    Chairman Issa. I appreciate that, but my question was a 
little more nuanced. The President has placed a number of 
political appointees, from your Chief of Staff on down. Were 
you given the ability, or do you believe you have the ability, 
to retain or to dismiss any or all of those individuals you 
find not to meet the standards necessary going forward for what 
you envision to be a predictable GSA that is cleaned up and 
that this sort of thing never happens again?
    Mr. Tangherlini. At the time, I never had a discussion 
specifically about that. But I did ask if I was going to have 
full authority to make recommendations on how we should 
structure the agency going forward, and that I was given 
assurance I would.
    Chairman Issa. Your predecessor showed a considerable 
frustration to both the chairman and the ranking member 
seemingly in two areas: the SESs that were paid a lot of money 
and, in fact, may not have performed well and even, in the case 
of Mr. Neely, are still being paid by the taxpayers; and the 
political appointees who made significantly less than those 
individuals. Do you share that frustration?
    Mr. Tangherlini. I, again, need to understand the reason 
why we have the GSA structure that we do. And in the sense that 
I heard the description from my predecessor, I understand the 
nature of her frustration. But I would like to know why we have 
the structure we have and see if there are ways that we can 
make it better.
    Chairman Issa. Has the GSA been successful in recovering 
any money so far from individuals who received benefits that 
were not warranted, either the individuals who made the 
decisions to spend the money or those who accepted them?
    Mr. Tangherlini. We began that process late last week, so I 
don't think we have received any money back at this time.
    Chairman Issa. How much are you hoping to receive back for 
the taxpayers?
    Mr. Tangherlini. Right now we have the case of the three 
individuals we have sought reimbursement for the private in-
room parties. We also have the contractor that charged us for 
hotel rooms when they were actually getting hotel rooms from 
GSA.
    I want to work very closely with Brian Miller and go 
through the entire bill of particulars and see how much of that 
we can get back.
    Chairman Issa. Our indication is that approximately 
$100,000 was spent. You know, this is an egregious amount, but 
when you break it down, one of the most egregious portions were 
the 10 fam trips, the 10 trips that included other luxury 
hotels on the Strip and so on that were visited by both 
individuals and their families. Will you seek to get any part 
of that money back from the individuals who had their vacations 
with their family paid for by the taxpayers?
    Mr. Tangherlini. I will work closely with Inspector General 
Miller to make sure that, to the extent that any funds are 
recoverable, we will recover them.
    Chairman Issa. Would you commit to us if you find that you 
cannot recover because statute doesn't allow for it to inform 
us? Because ultimately one of the reforms that I believe the 
chairman, in my role, and the ranking member and all of us on 
the committee want to do is make sure you are empowered when 
people receive something they are not entitled to to make sure 
the statute allows it to be clawed back.
    Mr. Tangherlini. I will commit to working with the 
committee and sharing with you where I have succeeded and where 
I have had less success.
    Chairman Issa. Lastly, you are inheriting an organization 
that had other problems. Some of the Members that were here 
earlier have worked on it. I know the ranking member in his 
role over at Transportation and Infrastructure, Ms. Norton in 
her role over there, have been frustrated for a very long time 
that there is a huge amount of waste within the management and 
disposal of Federal property. That is not the subject of this 
hearing, but it will continue to be the subject of both 
individual and joint hearings by T&I and this committee. So I 
would hope you would be prepared as quickly as possible to 
address those issues, because they are going to be of billion-
dollar concerns to us.
    Lastly, so far, we have been able to get from the Inspector 
General a pretty good production of documents. He has been very 
cooperative. Would you also commit to make sure that we get 
documents, preferably in electronic format, and organized 
pursuant to our request?
    Mr. Tangherlini. I think, to date, we have provided nearly 
50,000 documents to the committee. We had a--the initial 
request came in just about this time last week, so we have been 
working day and night and through the weekend to try to provide 
the committee with all the documents we can.
    Chairman Issa. Well, as I turn it over to the ranking 
member, I would like this to be an example of how it doesn't 
take months or a year to get document production. So far, the 
work from the GSA has been excellent. And that was the reason 
for the question but also for a comment, that it has been good 
so far.
    With that, I recognize the ranking member.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I am hopeful, Mr. Chairman, that we can bring Mr. 
Tangherlini back, and Mr. Miller, for some periodic checkups as 
to where they are with regard to what they are doing, because I 
just don't want to--I want us to make sure we stay on top of 
this.
    Chairman Issa. Oh, I have no doubt we will have several 
hearings of this sort going forward on a joint basis.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Tangherlini, you shared your plan to review the 
previous conferences as well as the controversial Hats Off 
Program that awarded electronic cameras and iPods to GSA 
employees. The Hats Off Program has been suspended pending your 
review. I understand that you also closed all other award 
programs; is that correct?
    Mr. Tangherlini. All other similar award programs in which 
points were given to employees that they could then turn in for 
prizes or awards.
    Mr. Cummings. Uh-huh. And how did that start, do you know?
    Mr. Tangherlini. I really don't know, and that is part of 
what I am trying to understand. What I would like to do is look 
at things like these award programs and ask ourselves, where 
did they come from, what purpose did they serve, is there some 
good underlying them, what contractual agreements do we have 
with our employees related to them.
    So we have suspended them. It is part of the top-to-bottom 
review, to really get to the bottom of where it came from.
    Mr. Cummings. And what will be done with the inventory 
remaining in those award programs?
    Mr. Tangherlini. Well, for the time being, I have asked 
them to hold and suspend the inventory pending a decision on 
whether we move forward on the program. If we move forward on 
the program, it could be reused. If we don't, we have--we are 
in charge of disposal of Federal property, so we would find a 
way to dispose of it properly.
    Mr. Cummings. And what type of awards programs, if any, do 
you feel are appropriate, if any?
    Mr. Tangherlini. Well, I think that that is one of the 
things we have to look at, is ask ourselves is our bonus and 
award program tied to the appropriate outcomes and the 
appropriate types of performance. GSA is about saving, so we 
should really find ways that we can re-emphasize savings within 
the GSA mission.
    Mr. Cummings. Now, you heard the testimony of the former 
Administrator and the fact that I think just about all the 
Members on the dais are very concerned about--and I think it 
was probably one of the weak parts of her testimony--the whole 
issue of the $9,000 bonus. And she explained the process by 
which one thing was separate from another thing.
    I mean, how do you deal with that? Because I think if there 
is anything--I remember when we had AIG and all these companies 
giving bonuses for bad behavior, I was very loud and sometimes 
loud by myself, and very upset about it. I think when you have 
bad actors, the last thing you want to do is to give them 
bonuses. The public doesn't understand it.
    And even if there is a two-track process--and that is the 
impression that I got, there are two tracks here. Some kind of 
way, we don't want--you know, as you go about the business of 
trying to re-establish this trust, you don't want the public to 
be confused about folks going out there and partying with their 
money and at the same time getting a bonus. I mean, it is like 
slapping them in the face.
    So I am just wondering, what are your plans with regard to 
that? Have you talked about it? Have you studied it? I mean, I 
know it is early on, but tell me, I mean, is that something 
that is GSA-wide, Federal Government-wide? I am just wondering.
    Mr. Tangherlini. I had some of these responsibilities 
overseeing the human capital operations at the Treasury 
Department in my role as assistant secretary of management. And 
I have to say that I have a slight disagreement. I believe that 
the process actually gives the Administrator more authority. 
And so one of the things we will need to do is make sure, as we 
look at how we manage performance, that we should look at the 
conversations we are having with the IG, and if there are any 
issues out there, and maybe put these things on hold if there 
are big questions out there.
    Mr. Cummings. You know, I talked about reestablishing 
trust, but it seems as if--you know, when I look at what 
happened here, it seems as if there may have been rules that 
were just totally disregarded. And that concerns me, because, 
and particularly when you have got rules that are being 
disregarded and not only being disregarded, but then you have 
folks making videos about how they are disregarding them, which 
is incredible to me, and basically saying, to hell with those 
people who are supposed to be over the oversight. I mean, it 
just seems like you got to dig deep to get into some of this. I 
don't know if this is just some surface stuff. So I am just 
trying to figure out, how do you get to that? Were you in here 
for the Administrator's testimony?
    Mr. Tangherlini. Yes, I saw the testimony.
    Mr. Cummings. All right. And did you hear my last question, 
sir, with regard to it seems as if the Administrator is here, 
but then there is all this stuff going on that seems to have a 
disconnect. And so tell me about that. Talk to me.
    Mr. Tangherlini. So what I found in just the short time I 
have been there, and it has only been about 2 weeks now, that 
it seems obvious to me that there is a disconnect between the 
headquarters and the regional operations. And to some extent, 
we need to build a stronger connection at a separation of 
duties level. So the chief financial officer, I have asked that 
the chief financial officer of the GSA serve as the chief 
financial officer straight down into the regions so that we 
have visibility into the way the regions are designing their 
budgets, and more importantly, spending their budgets. And I 
think that that is one of the things, as we conduct a top-to-
bottom review of GSA, we can ask ourselves some questions; why 
are we structured this way? Is this the best way to provide 
accountability and oversight? And if not, we should change it.
    Mr. Cummings. I really wish you well as you go forward. And 
I, too, agree with the chairman that we have seen what the 
failure to have somebody in that position permanently can do. 
And we need to do that. And I am hoping that the President will 
nominate you or somebody capable of addressing these issues, 
and then the Senate will move on the confirmation as soon as 
possible.
    Thank you very much. And if there is anything that we can 
do to be supportive of your efforts, please don't fail to call 
on us.
    Mr. Tangherlini. I appreciate that.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Gowdy. [presiding.] Thank the gentleman from Maryland.
    The chair would now recognize the gentleman from Texas, Mr. 
Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And we saw earlier in the day the GSA mission statement. 
Are you looking at revising that, or are you thinking we are 
all right with what it is?
    Mr. Tangherlini. I think as part of a top-to-bottom review, 
we should start with the mission statement and the goals. I 
haven't been there long enough to say whether this is the exact 
right one or the exact wrong one. It seems to hit many of the 
key points of savings and efficiency, economy, effectiveness. 
So I want to make sure that even if we were to change it, that 
we wouldn't lose those important parts.
    Mr. Farenthold. Right. And it would be your belief that in 
general, it is the GSA's job to get the best deal for the 
government and efficiently manage what the government has. Just 
broad general terms.
    Mr. Tangherlini. Absolutely.
    Mr. Farenthold. And part of that would be taking care of 
tax dollars as if they were your own or, more so, almost as if 
they were being held in trust.
    Mr. Tangherlini. Absolutely.
    Mr. Farenthold. Great. Now, the title of this hearing was, 
do we have a culture problem within the GSA or within the 
broader government? And I have to say I have worked with a lot 
of great government employees; I have worked with some that 
aren't so great. Do you think this is a cultural problem, or do 
you think this is more of a cancer?
    Mr. Tangherlini. Well, I think we definitely had a cultural 
problem in Region 9, probably tied to a leadership problem. But 
I can't say that I know enough about GSA to say whether we do 
or do not have a cultural problem across the organization when 
it comes to these issues.
    I will point out, though, I have received dozens and dozens 
of email mails from GSA employees who are every bit as 
outraged, every bit as angry about what took place here.
    Mr. Farenthold. It is my hope that this is a cancer, and we 
are going to be able to excise it from wherever it exists, be 
it in the GSA or any other government agency. And I think this 
committee has already started investigating the spending habits 
of some government agencies.
    I did want to touch on one other point. With regard to the 
acquisition of services, in his report, the IG identified a 
number of problems. In fact, this isn't the first report by Mr. 
Miller that has raised concern about the GSA acquisition 
officers disclosing competitor pricing or the maximum price. 
And GSA officials have failed to abide by small business set-
asides, failed to properly publish offerings, and omitted 
important Federal Acquisition Regulations clauses which protect 
the government. Do you think this is intentional misconduct, or 
do you think this is just ignorance or poor training?
    Mr. Tangherlini. I am not sure what it was in this case, 
but I can tell you that I think it is unacceptable. And I can 
tell you I think the GSA should be held to a higher standard. 
We should hold ourselves to a higher standard.
    And one of the actions I have taken most recently is to 
centralize in our senior procurement official, our senior 
procurement executive, the ability to grant or withdraw 
warrants. Warrants are the ability to actually make procurement 
actions. So I think we have to take a good strong look at how 
we do things, how we set ourselves up, what our standards are, 
what our performance is. How do we create structures of 
accountability? And hopefully, we can make the improvements to 
make sure that nothing like this can happen again.
    Mr. Farenthold. And Members of Congress have district 
offices where they hear complaints and problems from 
constituents. And just in the past few months, there have been 
an alarming number of folks who have complained about the 
government contracting process, not just with the GSA but other 
agencies. And you ought to be able to walk away feeling like 
you were treated fairly by the government. As a former small 
business owner, I know it takes a lot of time and, in many 
cases, thousands of dollars to prepare a proposal, especially 
for a government agency. And to have your bid disclosed to a 
competitor, or to have your bid, when it was the lowest, passed 
over is very frustrating to people, and ends up, especially in 
the case of smaller businesses, you just throw up your hands. 
You don't have the money to go hire a government contracting 
attorney. You just walk away and say I am done with the 
government. And you end up with good people who could offer 
products and services at a better cost just refusing to go 
through the red tape.
    So I look forward to the GSA making that a priority to 
educate not just their own contracting officers but the other 
government agencies that the GSA trains through the Federal 
Acquisition Institute. And I would appreciate your commitment 
to make that part of your agenda.
    Mr. Tangherlini. I appreciate that. And I think you are 
right, that government contracting isn't always easy, but it 
should be fair.
    Mr. Farenthold. Thank you very much.
    I yield back.
    Mr. Gowdy. The chair thanks the gentleman from Texas, and 
now recognizes the gentlelady from the District of Columbia, 
Ms. Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Tangherlini, I must say that I welcome the President's 
decision to bring you to the GSA, because I am very familiar 
with your own record as, if you will forgive me, something of a 
turnaround agent in government because of the tough posts you 
have had. First, the President simply takes out the top of the 
agency, including the Administrator, who may not have been 
conversant with what was happening below, and he had to do 
that. That is the way things like this are done in 
parliamentary democracies, like Britain and Asia. But in our 
country, somehow we go beneath the top and go after someone who 
has hands on as if the top has nothing to do with how the 
agency is run.
    So I think that your experience running, you were the 
operational head of the District of Columbia, running the 
operations of a big city and, for that matter, of the 
Metropolitan Transit Authority more than equips you to take on 
what needs to be done here. And you heard perhaps the 
Administrator speak about how she felt the agency was in need 
of reforming. I can't imagine that you don't think so as well. 
It may be that you can continue what she began, and it may be 
that you have a different vision.
    But let me give you a specific example, because it really 
involves a chain of command. There was a question asked by one 
of our colleagues on the other side that I thought was very 
good, which is how did Mr. Neely get ahold of this pot of money 
in the first place? It looked like he regarded as his own. And 
actually it wasn't ever answered, at least to my satisfaction. 
It looks like Mr. Neely was in charge of Mr. Neely.
    Let me ask you about how decentralized this agency is, and 
whether it is decentralized to a fault. There is one theory of 
management, which is I think a very efficacious one, that goes 
that if you delegate to managers hands-on responsibility, you 
can hold them accountable and they become more creative. When 
you get a situation like this, one has to ask about whether or 
not the agency has any chain of command, whether if, for 
important issues like spending, the Administrator at the top 
and the Chief of Staff can sit here and say, well, I don't know 
anything about it, one wonders whether this agency is simply 
run at the regional level with Washington having no 
responsibility for holding the regions accountable. So I would 
like you to discuss what you think of the chain of command now, 
if you think it is too decentralized, if you think its 
operations and its budget--I think you said something about the 
CFO--but whether in general, this agency has simply allowed 
itself to be run as if there were--what is it--11 regions 
running one agency.
    Mr. Tangherlini. I think autonomy is incredibly important 
if you are going to allow managers to innovate. But autonomy 
without accountability can lead to the kind of situations we 
find here. And what we are interested in----
    Ms. Norton. For example, did Mr. Neely report to anyone on 
spending, or was he the final check on spending, including his 
own spending?
    Mr. Tangherlini. I don't exactly understand the nature of 
the reporting structure that Mr. Neely was operating under at 
the time. I can tell you my concern is that the financial 
management office of the Public Buildings Service was 
autonomous from the chief financial officer; that each of the 
different authorities, each of the different regions had 
authority over their own budget within the region, and so they 
had autonomy over the administration of those budgets. We even 
found, in trying to get the records, that it is very hard to 
get the records from the regions of the actual spending.
    So, early on, we think the quickest thing we can do to make 
sure that we have a stronger sense of accountability to avoid 
this kind of problem from happening again in the near term and 
going forward is to centralize the authority over the financial 
management of the agency within the agency chief financial 
officer and make each one of those service and regional 
financial managers report up to the chief financial officer. We 
are now going to have to build the appropriate data systems, 
the data collection systems. We are going to have to build the 
appropriate budget oversight. But that appeared to be missing.
    Ms. Norton. I want to ask you a question about this Hats 
Off. GSA procures for Federal agencies, doesn't it? If you want 
to order something, you order it through the GSA. Can it be 
that through this program, where they awarded electronic 
cameras and iPods and the like, got out of hand because GSA ran 
the procurement of these electronic devices, and with little 
oversight from the top, simply regarded these stores as 
something that grew on its own as something that they could use 
to award to their own employees? In other words, I am looking 
for the link between their own procurement authority and using 
that authority within the agency for its own employees in a way 
that I have never seen done in Federal agencies elsewhere.
    Mr. Tangherlini. So from what I understand, and this is 
from the IG report, Mr. Miller's report on the Hats Off 
program, that that was focused with the electronic equipment, 
the GPS's, was focused around Region 9 and just Region 9.
    Ms. Norton. Yeah, I am talking about Region 9.
    Mr. Tangherlini. Right. The broader program operated 
throughout the agency.
    From what I also understand, what was going on in Region 9 
was that they were violating simply the, if not the procurement 
rules, they were violating the personnel rules and the limit 
you could give for any one special act-type award in that 
regard. So I think that the rules actually are in place. What 
we had was a case of people simply ignoring them.
    Ms. Norton. I just wonder if you are going to give out 
valuable, much-wanted things like iPods and other electronic 
equipment, it seems to me there ought to be--somebody ought to 
have done something pretty wonderful in the agency.
    Thank you very much, Mr. Chairman.
    Mr. Gowdy. I thank the gentlelady from the District of 
Columbia.
    The chair would now recognize himself for questioning.
    Mr. Tangherlini, you have a Herculean task ahead of you, 
which is to restore public trust not just in GSA; most folks 
don't compartmentalize government that way. They just don't 
have any trust or confidence in really any of the institutions 
of government, including those of us sitting on this dais.
    So it is a big challenge, but it is a fundamental 
challenge. You have to do it. And far be it from me to tell you 
how to do your job. I never ran anything the size of GSA. But I 
can tell you this, in a little D.A.'s office in Spartanburg 
County, when we had budget cuts, we suspended all travel. And I 
would encourage you to do something, not just at the margins, 
but something to send a message that if it can be done via 
telephone, it must be done via telephone. If it can be done by 
video conferencing--I understand, I guess, at some level team 
building. I am not saying I have never been part of a team 
building exercise. I am sure I have. I don't remember enjoying 
it. But I remember--I have been to different conferences where 
they did it. But these are really austere times. And for folks 
watching, who really are struggling, it is hard for them to 
understand what they have heard today or what they have read 
about this conference. And let me ask you this starting off. If 
one of the folks we are working for, one of our fellow citizens 
or a government employee is aware of waste, fraud, abuse, 
personal gain, is there a repository? They don't have access to 
the Inspector General. How would just an ordinary citizen or an 
ordinary government employee that sees waste, fraud, and abuse 
and wants to correct it, to whom would they report it?
    Mr. Tangherlini. I know this committee has a Web site on 
which they can report these things. But actually, a private 
citizen can report waste, fraud, and abuse that they think is 
related to GSA to the GSA IG by going to www.GSAIG.gov. We also 
have <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0d6c2d1c5d4ded5c4f0f7e3f1f9f79ed7dfc69e">[email&#160;protected]</a> And that is an email address people 
can use. And the GSA IG has a phone number, (800) 424-5210. And 
we encourage anyone who sees anything that they think is 
untoward about GSA activity to reach out to the IG.
    Mr. Gowdy. Well, thank you for that.
    And you know, Mr. Cummings raised a pretty provocative 
point, I thought, which is--and so did Mr. Farenthold--where is 
the line between nuances that need more training and just a 
character deficiency? Because honestly, some of what happened 
in this conference, there is no training in the world that is 
going to fix that. It is just a character flaw. So from a 
hiring standpoint or a retention standpoint, if you are having 
to train someone that they can't go to a hotel employee and ask 
for a discount on a personal purse or pocketbook, it just 
strikes me that there is no training in the world that is going 
to fix that. So there has to be a moral component to it. How do 
you address that from your position?
    Mr. Tangherlini. I think it starts at--it is a leadership 
requirement. And it means that you have to have strong messages 
coming from the top. And that is why in the first week, meeting 
with the Inspector General, we agreed to send a joint letter to 
all GSA staff and tell everyone that we have an expectation 
that they will raise alarm or concern if they see something 
they think is untoward.
    GSA employees are the most skilled employees for 
understanding the travel rules, the procurement rules, the 
acquisition rules. So they should be the ones who are the 
easiest ones to recognize when something is wrong. And so I 
think we have to start with strong leadership, and then we have 
to make sure that our leaders are actually sending the leaders 
in the regions, the leaders throughout the organization are 
also sending a similar message.
    But we also have to encourage employees to come forward and 
say it is okay to come forward if you see something wrong, 
because that is the way we can catch these things before they 
spin out of control and happen the way this one did.
    Mr. Gowdy. I have time for one more specific question, so I 
will end it on this. Most folks reading about this, watching it 
on the news, are struggling with whether or not they are going 
to be able to go on vacation this summer. The thought of going 
on a scouting trip to figure out whether or not they like the 
condo or the beach house or the amusement park has never 
entered their mind. Was this a question of people exceeding 
their jurisdiction, their subject matter jurisdiction, if you 
will, from a legal standpoint, or was it an abuse of 
discretion? I mean, is there really the power to say I need to 
go four or five times to scout a series of four-star hotels? So 
is it totally outside their jurisdiction, or was it just an 
abuse of discretion? Because most of us were surprised to learn 
that you would have the authority to abuse, to have multiple 
scouting trips when everything is available, I mean virtual 
online tours, word of mouth. Which is it? Is it a discretion 
issue or a power issue?
    Mr. Tangherlini. I may not be the best person to answer 
that question.
    I can tell you what we have done. And what we have done is 
centralize our travel and conference approval process in our 
chief administrative officer's office. Now, we don't think we 
are going to get in the way of anyone doing important and 
valuable travel and training by simply asking that they come to 
the front office; they come to the GSA headquarters and make a 
case for what it is exactly they are doing. And then, 
hopefully, if this kind of thing begins to happen, we can see a 
pattern, and we can stop it before it goes any further. 
Frankly, I think that people know when they are being watched 
and that they have to make a case and they have to document it, 
that that will in part stop this behavior.
    Mr. Gowdy. Well, my time is up. On behalf of all of us, 
thank you for your testimony today. We honestly, earnestly wish 
you well. I don't know you. Not because I personally want you 
to do well, but for us to make it as a Republic, you have to do 
well. We have to do well. We can't survive with people not 
having confidence in the institutions of government. We just 
won't make it.
    So on behalf of all of us, thank you and good luck.
    Mr. Tangherlini. Thank you.
    Mr. Gowdy. With that, the hearing is adjourned.
    [Whereupon, at 4:54 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5709.032
    
    [GRAPHIC] [TIFF OMITTED] T5709.033
    
    [GRAPHIC] [TIFF OMITTED] T5709.034
    
    [GRAPHIC] [TIFF OMITTED] T5709.035
    
    [GRAPHIC] [TIFF OMITTED] T5709.036
    
    [GRAPHIC] [TIFF OMITTED] T5709.037
    
    [GRAPHIC] [TIFF OMITTED] T5709.038
    
    [GRAPHIC] [TIFF OMITTED] T5709.039
    
    [GRAPHIC] [TIFF OMITTED] T5709.040
    
    [GRAPHIC] [TIFF OMITTED] T5709.041
    
    [GRAPHIC] [TIFF OMITTED] T5709.042
    
    [GRAPHIC] [TIFF OMITTED] T5709.043
    
    [GRAPHIC] [TIFF OMITTED] T5709.044
    
    [GRAPHIC] [TIFF OMITTED] T5709.045
    
    [GRAPHIC] [TIFF OMITTED] T5709.046
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
